<html>
<title> - COMBATING GANG VIOLENCE ON LONG ISLAND: SHUTTING DOWN THE MS-13 PIPELINE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    COMBATING GANG VIOLENCE ON LONG ISLAND: SHUTTING DOWN THE MS	13 
                                PIPELINE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2017

                               __________

                           Serial No. 115-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-613 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. William Sweeney, Jr., Assistant Director in Charge, New York 
  Field Office, Federal Bureau of Investigation, U.S. Department 
  of Justice:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Angel M. Melendez, Special Agent in Charge, Homeland Security 
  Investigations, Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Timothy D. Sini, Police Commissioner, Suffolk County, New 
  York:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Vincent F. DeMarco, Sheriff, Suffolk County, New York:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Thomas C. Krumpter, Acting Commissioner, Nassau County Police 
  Department, Nassau County, New York............................    26
Mr. Michael Marino, Commanding Officer, Gang Investigations 
  Squad, Nassau County Police Department, Nassau County, New 
  York:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29

                                Panel II

Mr. Robert Mickens, Suffolk County Resident:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47
Ms. Evelyn Rodriguez, Suffolk County Resident:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Mr. Howard M. Koenig, Ph.D., Superintendent of Schools, Central 
  Islip Union Free School District:
  Oral Statement.................................................    49
  Prepared Statement.............................................    50
Mr. Patrick Young, Esq., Program Director, Central American 
  Refugee Center:
  Oral Statement.................................................    51
  Prepared Statement.............................................    54

                                Appendix

Questions From Chairman Peter T. King for William Sweeney, Jr....    65
Questions From Chairman Peter T. King for Angel M. Melendez......    65
Questions From Chairman Peter T. King for Timothy D. Sini........    67
Questions From Chairman Peter T. King for Vincent F. DeMarco.....    67
Questions From Chairman Peter T. King for Thomas C. Krumpter.....    67

 
                    COMBATING GANG VIOLENCE ON LONG 
                    ISLAND: SHUTTING DOWN THE MS-13
                                PIPELINE

                              ----------                              


                         Tuesday, June 20, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                 Central Islip, NY.
    The subcommittee met, pursuant to notice, at 9:30 a.m., at 
Alfonse M. D'Amato United States Courthouse, 100 Federal Plaza, 
Central Islip, New York, Hon. Peter T. King [Chairman of the 
Subcommittee] presiding.
    Present: Representatives King [presiding], and Rice.
    Mr. King. Good morning. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence, will come to 
order.
    The subcommittee is meeting today in Central Islip, New 
York to hear testimony on the threat posed by MS-13 and the 
efforts to counter this violent gang. I would like to thank the 
Ranking Member, Ms. Kathleen Rice, for joining me and holding 
this important meeting. Now I will make an opening statement.
    Before that, though, let me thank all of you for being here 
today, all the witnesses, all the law enforcement, family 
members, school superintendents, community advocates. It is 
really important, and also the fact that there is a turnout 
here from the community that shows how vital this issue is.
    The bottom line is MS-13 is a morally depraved, 
transnational murderous gang which terrorizes innocent people. 
The acts of violence connected to transnational gangs, 
specifically MS-13, have drastically and dramatically increased 
in Suffolk and Nassau County over the past several years. Just 
in the last more than a year, there have been 17 murders in 
Suffolk County alone committed by MS-13, and this is something 
which cannot be allowed to continue. It is essential we have a 
full-scale National, State, and local effort to destroy and end 
the terrorism, the tyranny of MS-13. They in many ways have 
turned immigrant communities into a killing field, and it is 
primarily within the immigrant community that these vicious 
machete killings, brutal murders have been carried out, and 
these are good people who are often unheard and not listened 
to.
    So it is important, I think, that we bring this to the 
public's attention to realize that maybe in Central Islip and 
Brentwood today the fact is these are innocent human beings 
being killed, it is happening on our watch, and we have to do 
all we can to stop it. I want to thank all those who are here 
today because they have made significant contributions in this 
war against MS-13. It is important that everybody stand 
together on this.
    I have spoken to President Trump, who is absolutely 
committed to doing whatever is necessary to devastate MS-13. As 
you know, Attorney General Sessions was in here on April 28, 
actually in this courthouse, meeting with many of the people 
who are here today to express the full support of the Justice 
Department and all the resources of the Federal Government.
    I know that here in Suffolk County, the FBI, Homeland 
Security's HSI, and Nassau County Police, Suffolk County 
Police, Sheriff DeMarco, everyone has been working together, 
and that is really important. It has been really very positive 
results over the last several months. We see the sweeps and 
raids where 20, 30, 40 have been arrested, and these are MS-13 
members, people who are affiliated with MS-13. These are people 
who are terrorizing the community.
    So it is essential that the word get out that it is 
important that there be cooperation with law enforcement 
because the bottom line is that the police and the FBI and 
Homeland Security can only do so much. The real information is 
going to come from people on the ground, and that is why it is 
vital that we establish that trust, that relationship, and that 
people in the community, leaders in the community encourage the 
people in the community to cooperate.
    I remember being at a community meeting back in April with 
Commissioner Sini, and he said that he knew that the people in 
the room knew who the murderers were. So it is important that 
those people come forward, whether it is this case or other 
cases. Certainly, the murder of those four young boys back in 
April attracted National and international attention. 
Considering the fact that Suffolk County and Nassau County have 
such low crime rates, it is really terrible that we have become 
known for MS-13.
    So I am going to talk about this from an ego point or a 
prestige point of view about we want Suffolk County to be known 
for the fact that they do have solid law enforcement and the 
crime rate is low. We do not want to be attracting other gang 
members, other gangs that come to Long Island. We want them to 
know that so long as they are here, they are going to be on the 
run, they are going to be hunted down, and they are going to be 
arrested or deported, whatever has to be done to stop them.
    So again, I look forward to the hearing. I look forward to 
the witnesses, all of them experts.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             June 20, 2017
    MS-13 is a morally-depraved transnational murderous gang 
terrorizing innocent people. Acts of violence connected to 
transnational gangs, including specifically MS-13, have drastically 
increased in Suffolk and Nassau County in the last several years. A 
tragic sample is the September 13, 2016, murders of 15-year-old Nisa 
Mickens and 16-year-old Kayla Cuevas, in Brentwood, New York. Mickens 
and Cuevas were Brentwood High School students who were assaulted with 
baseball bats and a machete by four MS-13 gang members.
    Additionally, on March 2, 2017, 13 MS-13 members were charged 
Federally with racketeering, 7 murders, narcotics violations, and other 
offenses. Included in these charges were the murders of Mickens, 
Cuevas, and Jose Pena. Pena was another Brentwood High School student 
who was killed on June 3, 2016, but whose remains were not found until 
October 17, 2016. These victims, along with 14 others dating back to 
January 2016, were murdered by MS-13 in Suffolk County alone. Seven of 
the 13 gang members charged on March 2, 2017, entered the United States 
through the Unaccompanied Alien Children's Services Program. Just in 
the past 6 weeks, there have been major sweeps in Nassau and Suffolk 
counties resulting in the arrest of more than 40 MS-13 members.
    In fiscal year 2016 alone, 4,985 unaccompanied children were 
released to sponsors in the New York State through the Unaccompanied 
Alien Children Service's Program, with 1,219 being relocated in Nassau 
County and 1,472 going to sponsors in Suffolk County.
    In response to this dire situation that threatens the very lives of 
our children and the safety of our community, it is vital that we 
examine the threat posed by MS-13 and the extent to which this violent 
gang is able to exploit U.S. immigration programs and circumvent border 
security measures to gain entry into the United States.
    Today's hearing will feature testimony from the law enforcement and 
community stakeholders focused on the threat posed by MS-13 and efforts 
to combat the violent gang. The first panel will include 
representatives from the Suffolk Police Department, the Suffolk County 
Sheriff's Office, the Nassau Police Department, the FBI and Homeland 
Security Investigations. All of these agencies have participated in 
major investigations into MS-13 gang activity on Long Island.
    Our second panel will feature the family members of two of the 
victims of MS-13 violence. Although their testimony today will speak to 
the impact this violence has on their families and their community, we 
will never be able to understand the depths of their loss. They are 
showing true courage and resilience in sharing their stories here 
today. We will also receive testimony from the superintendent of the 
Central Islip school district and an attorney who works with the 
immigrant community on Long Island.
    Both of these panels reflect the broad cross-section of the 
community required to respond to the threat posed by MS-13 and other 
transnational gangs on Long Island and across the Nation.
    This hearing marks an important step in our efforts to improve the 
homeland security of the United States. By examining the threats posed 
by MS-13 and other transnational gangs, and the ability of these 
violent organizations to penetrate our borders, we can begin to 
understand the measures we must take to ensure that border security 
screening programs are comprehensive, effective, and secure. These 
efforts must include bipartisan cooperation from Congress and support 
from the administration as a unified front against the threats facing 
our Nation.
    I look forward to hearing from our witnesses and drawing upon their 
expertise, insights, and experiences to look for improvements that can 
be made to strengthen our programs and policies and work together as a 
community to combat and defeat MS-13 and other transnational gangs.

    Mr. King. With that, I yield to the Ranking Member, Ms. 
Rice.
    Ms. Rice. Thank you, Mr. Chairman, for holding this 
hearing, and thank you to all of our witnesses for coming 
today. We are fortunate to have two diverse panels of witnesses 
with unique perspectives and insights on how we can both combat 
gang violence on Long Island on the one hand, and on the other 
empower young people with the knowledge, support, and resources 
they need to reject gangs in their communities.
    We are here today to examine a very real and serious threat 
to public safety on Long Island. MS-13 and their rival gangs 
are criminal organizations who commit brutal acts of violence 
and have taken too many lives to name in the few minutes I have 
for this statement. They are organizations that revel in 
violence, crave fear, and terrorize the communities in which 
they live and operate and recruit their members.
    Many of the members of MS-13 are, in fact, immigrants and 
children and descendants of immigrants, and over the past few 
months it has seemed to me that President Trump and Attorney 
General Sessions have sought to use the threat of MS-13 to 
justify their push to build a wall on the Southern Border and 
round up and deport millions of immigrants, including those 
whose only crime is being in this country without paperwork.
    This is not the time nor the place to debate those 
policies, but I bring it up only to say that what too often 
gets lost in this highly-charged and divisive debate is the 
fact that many, if not most, of MS-13's victims are also 
immigrants. The families who fear that their son might be 
targeted, targeted by, or pressured to join MS-13 are immigrant 
families. The communities that are terrorized by MS-13 are 
often immigrant communities. I think it is safe to say that 
immigrants want these gangs to be dismantled and brought to 
justice as much as anyone else, if not more.
    As the former Nassau County district attorney, I have seen 
first-hand how vicious and unrepentant these gangs are. I have 
seen MS-13 members laugh at the judge as they were sentenced to 
life in prison or deportation. I believe all violent criminals 
should be punished to the full extent of the law. I believe 
that violent criminals who are in this country illegally should 
be deported and prevented from ever coming back.
    I believe that dismantling violent criminal organizations 
like MS-13 must be a priority for law enforcement officials and 
lawmakers at all levels. I also know for a fact that the vast 
majority of immigrants in this country are not criminals. They 
are, in fact, more likely to be the victims of crime than the 
perpetrators, and I know that you cannot take on a gang like 
MS-13 without the help of immigrant communities. You need 
members of the community to talk to you, provide information, 
report crimes, and for that they need to trust you. They need 
to know that stepping forward to help will not lead to them 
being detained and deported and ripped away from their 
families.
    I have met with many immigrants in my district over the 
past 6 months, documented and undocumented, and there is a very 
real and palpable sense of fear right now in Long Island's 
immigrant communities. I am concerned that this sense of fear 
and alienation first of all may make immigrants, particularly 
young immigrants, more vulnerable to be targeted by MS-13 for 
protection and recruitment purposes; and second, could make 
immigrants less likely to cooperate with authorities, both of 
which would significantly undermine our efforts to eliminate 
gangs like MS-13 from our communities. I would appreciate any 
thoughts or insight our witnesses can provide about those 
concerns.
    I would like to thank all of our law enforcement witnesses 
on the first panel and congratulate you for the successful 
operation last week that resulted in the arrest of 39 MS-13 
members and affiliates, as well as 6 members of other street 
gangs.
    Finally, I want to offer my condolences to Mrs. Rodriguez 
and Mr. Mickens, and thank you for having the courage to 
testify today.
    I want to thank all the witnesses on our second panel for 
the critical work that you do, whether helping prevent young 
people from joining gangs like MS-13 or being a voice for our 
immigrant communities. I know your work as parents, activists, 
and educators may seem to go unnoticed at times, but I assure 
you we are aware and truly grateful for your efforts.
    I look forward to a frank and productive conversation 
today. Thank you, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Rice follows:]
              Statement of Ranking Member Kathleen M. Rice
                             June 20, 2017
    We are fortunate to have two diverse panels of witnesses with 
unique perspectives and insights on how we can both combat gang 
violence on Long Island, on the one hand, and on the other, empower 
young people with the knowledge, support, and resources they need to 
reject gangs in their communities.
    We're here today to examine a very real and serious threat to 
public safety on Long Island. MS-13 and their rival gangs are criminal 
organizations who commit brutal acts of violence and have taken too 
many lives to name in the few minutes I have for this statement. They 
are organizations that revel in violence, crave fear, and terrorize the 
communities in which they live and operate and recruit their members.
    Many of the members of MS-13 are, in fact, immigrants and children 
and descendants of immigrants. And over the past few months, it has 
seemed to me that President Trump and Attorney General Sessions have 
sought to use the threat of MS-13 to justify their push to build a wall 
on the Southern Border and round up and deport millions of immigrants--
including those whose only crime is being in this country without 
paperwork.
    This is not the time or the place to debate those policies. But I 
bring it up only to say that what too often gets lost in this highly-
charged and divisive debate is the fact that many if not most of MS-
13's victims are also immigrants. The families who fear that their son 
might be targeted by or pressured to join MS-13 are immigrant families. 
The communities that are terrorized by MS-13 are often immigrant 
communities. And I think it is safe to say that immigrants want these 
gangs to be dismantled and brought to justice as much as anyone else, 
if not more.
    As the former Nassau County district attorney, I've seen first-hand 
how vicious and unrepentant these gangs are. I've seen MS-13 members 
laugh at the judge as they were sentenced to life in prison or 
deportation.
    I believe all violent criminals should be punished to the full 
extent of the law. I believe that violent criminals who are in this 
country illegally should be deported and prevented from ever coming 
back. I believe that dismantling violent criminal organizations like 
MS-13 must be a priority for law enforcement officials and lawmakers at 
all levels.
    I also know for a fact that the vast majority of immigrants in this 
country are not criminals--they are in fact more likely to be the 
victims of crime than the perpetrators. And I know that you cannot take 
on a gang like MS-13 without the help of immigrant communities. You 
need members of the community to talk to you, provide information, 
report crimes--and for that, they need to trust you. They need to know 
that stepping forward to help will not lead to them being detained and 
deported and ripped away from their families.
    I have met with many immigrants in my district over the past 6 
months--documented and undocumented--and there is a very real and 
palpable sense of fear right now in Long Island's immigrant 
communities. I'm concerned that this sense of fear and alienation, 
first of all, may make immigrants--particularly young immigrants--more 
vulnerable to be targeted by MS-13 for protection and recruitment 
purposes. And second, could make immigrants less likely to cooperate 
with authorities--both of which would significantly undermine our 
efforts to eliminate gangs like MS-13 from our communities. I would 
appreciate any thoughts or insight our witnesses can provide about 
those concerns.
    I would like to thank all of our law enforcement witnesses on the 
first panel and congratulate you for the successful operation last week 
that resulted in the arrest of 39 MS-13 members and affiliates, as well 
as 6 members of other street gangs.
    Finally, I want to offer my condolences to Ms. Rodriguez and Mr. 
Mickens and thank you for having the courage to testify today.
    And I want to thank all the witnesses on our second panel for the 
critical work that you do--whether helping prevent young people from 
joining gangs like MS-13, or being a voice for our immigrant 
communities. I know your work as parents, activists, and educators may 
seem to go unnoticed at times, but I assure you we are aware and truly 
grateful for your efforts.

    Mr. King. Thank you, Ms. Rice.
    We are pleased to have two panels of distinguished 
witnesses before us today on this important topic. All the 
witnesses are reminded that their written testimony will be 
submitted for the record. To the extent you can, we ask you to 
try to limit your opening statement to 5 minutes. I am not 
going to enforce it strictly, but to the extent you can, it 
will be appreciated. It will give us more of an opportunity to 
have a give-and-take in the question-and-answer session.
    Our first witness is Mr. William F. Sweeney, Jr., the 
assistant director in charge of the New York Field Office of 
the FBI. He has been with the FBI since 1998. He has an 
extensive record on both criminal and National security 
investigations, and he came to New York as the special agent in 
charge and the assistant director in charge of the field office 
in October 2016, which I believe was the same week of the 
Chelsea bombing. So it was really a baptism by fire, but he 
does an outstanding job, extremely cooperative I know with my 
office and with the Congress generally.
    So with that, Mr. Sweeney, I thank you for being here 
today, and you are recognized.

   STATEMENT OF WILLIAM SWEENEY, JR., ASSISTANT DIRECTOR IN 
CHARGE, NEW YORK FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Sweeney. Thank you, sir. Good morning, Representative 
King, Ranking Member Rice. Thank you for the opportunity to 
discuss gang violence on Long Island and our efforts to combat 
the threat posed by MS-13.
    The FBI assesses there has been a surge in MS-13 activity 
and recruitment in the United States over the past 2 years. 
While MS-13 is not the largest street gang in the United 
States, they are increasingly the most violent and well-
organized.
    In terms of organization, origin, and structure, and a 
comparison to other gangs, MS-13 is atypical in their approach 
to crime and structure. Clique leaders in the United States 
coordinate with one another, as well as the leadership in El 
Salvador. This is not something we normally see with other 
groups. Members capitalize on the ability to extort individuals 
living in the United States who still have family in Central 
America, threatening to harm them.
    Using fear as a method of extortion, the gang often targets 
small business owners, individuals who do not want to join a 
gang, and gang members who no longer want to be a part of MS-
13.
    MS-13 gained notoriety for the brutal nature of their 
crimes, and their motivation is generally rooted in a desire to 
kill for the sake of killing. Going back to January 1992, the 
FBI announced the Safe Streets Violent Crime Initiative, 
designed to allow each field office in the FBI to address 
violent street gangs, drug-related violence through the 
establishment of FBI-sponsored, long-term, proactive task 
forces.
    The Violent Gangs Safe Streets Task Force became the 
vehicle through which all Federal, State, and local law 
enforcement agencies joined together to address violent crime 
plaguing their communities. The FBI's Safe Streets Gang Unit 
administers 169 of these task forces Nation-wide, staffed by 
approximately 800 agents, roughly 1,375 State and local law 
enforcement personnel, and 58 agents from Federal agencies.
    The Safe Streets Task Force concept expands cooperation and 
communication among Federal, State, and local law enforcement 
agencies, increasing productivity and avoiding duplication of 
investigative effort.
    Here in New York, your task force is called the Long Island 
Gang Task Force, and it is part of that Safe Streets network. 
Since 2003, this task force has been protecting the communities 
on Long Island from the threat of gang violence. The leadership 
of that task force, some of which sits at the table with me and 
some behind me, is currently composed of agents and officers 
from the FBI, the Suffolk County Police Department, the Nassau 
County Police Department, the Nassau County Sheriff's 
Department, the Suffolk County Sheriff's Department, Suffolk 
County Probation, Rockville Centre Police, New York State 
Police, Hempstead Police, and the Bureau of ATF.
    This model allows us to bring all essential stakeholders 
together to address the most violent crimes in the community. 
Since 2010, your task force has arrested over 200 MS-13 
members, resulting in the successful prosecution of members 
involved in more than 35 homicides. A majority of these members 
have been convicted on Federal racketeering charges for 
participating in murders, attempted murders, and assaults. We 
will continue to surge resources to work this threat. We have 
increased the participation on our task force by adding 
personnel from the New York State Police, and we have enhanced 
our intelligence capabilities by developing an intelligence 
fusion group, where all the analysts sit together from these 
agencies.
    We have also enhanced our relationship with the Suffolk 
County Police Department to include our mutual agreement that 
all MS-13 homicide investigations in Suffolk County will be 
investigated jointly by the task force and the Suffolk Homicide 
Squad.
    The FBI also works closely with our transnational anti-gang 
task force based in El Salvador, Guatemala, and Honduras. These 
groups, called TAGs, were set up by FBI agents who lead vetted 
teams of national police and prosecutors, coordinating with the 
legal attaches in those countries and coordinated back here at 
home. Through these TAGs we reap the benefits of local 
intelligence, which allows us to apply a national and 
international approach to the problem. We are currently focused 
on identifying MS-13 leadership in the United States. We are 
working to establish an international standard for 
understanding the elements of the gang structure, its members, 
and associates.
    Using overseas resources to identify and target individuals 
and organizations that negatively affect our local field 
offices here and our local communities has proven successful. 
In fact, the partnership led to the capture of top-10 fugitives 
I believe back in 2013 and 2014.
    MS-13 remains a top priority for the FBI as we assess that 
they will continue to expand and employ intimidation tactics 
while engaging in increasingly violent crimes. The 
relationships we have established with partners, both at home 
and abroad, will continue to prove essential in identifying, 
combating, and eliminating the threats posed by MS-13.
    Chairman King and Ranking Member Rice, thank you again for 
the opportunity to discuss the MS-13 threat. Mr. Chairman, we 
are grateful for the leadership you and the community have 
provided to the FBI, and we thank you for your continued 
support, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Sweeney follows:]
             Prepared Statement of William F. Sweeney, Jr.
                             June 20, 2017
    Good morning Chairman King, Ranking Member Rice, and Members of the 
committee. Thank you for this opportunity to discuss gang violence on 
Long Island and the FBI's efforts to combat the threats posed by MS-13 
and dismantle their network.
    Street gangs continue to affect communities across the United 
States and show no signs of decreasing memberships or a decline in 
criminal activity. According to the FBI's 2015 National Gang Report, 
street gang membership increased in approximately 49 percent of 
jurisdictions from 2013-2015.
    More specifically, the FBI assesses there has been a surge in MS-13 
activity and recruitment in the United States over the past 2 years. 
We're here today to discuss this particular threat and our efforts to 
combat gang violence in MS-13 territories on Long Island.
    While MS-13 is not the largest street gang in the United States, it 
is increasingly the most violent and well-organized. Their leadership 
is based in El Salvador and Honduras, but we believe there could be up 
to 10,000 members currently living in the United States, primarily 
immigrants from Central America.
    In terms of origin and structure, and in comparison to other street 
gangs in the United States, MS-13 is atypical in their approach to 
crime and organizational structure. Clique leaders here in the United 
States coordinate with one another, as well as leadership in El 
Salvador. This isn't something we typically see with other street gangs 
in the United States, whose primary leadership is home-based. MS-13 
gang members in El Salvador and the United States remain in contact 
with one another; they frequently discuss targets, members who have 
fallen out of favor, and ways to expand their operations.
    Members also capitalize on the ability to extort individuals living 
in the United States who still have family in Central America, 
threatening to harm family abroad. Using fear as a method of extortion, 
the gang often targets small business owners and restauranteurs, 
individuals who don't want to join the gang, and gang members who no 
longer want to be active.
    The brutal nature of MS-13 crimes has gained notoriety throughout 
the United States, and their motivation is generally rooted in a desire 
to kill for the sake of killing. The attacks on their victims are 
gruesome, typically up close and personal. They often involve 
mutilation and dismemberment and are sometimes recorded. Because of 
this, MS-13 crimes often receive a significant amount of media 
attention.
    Law enforcement encounters unique challenges when addressing the 
MS-13 threat including the limitations of some traditional enforcement 
strategies; the group's propensity for gruesome violence; their 
established international network; and their transient nature. What 
also concerns us is the age of the average MS-13 member and associate. 
Typically much younger than those connected to other street gangs, MS-
13 members and associates often lack direction, taking cues from the 
gang instead of relying on a productive family structure. In addition, 
those emigrating from El Salvador to the United States are known to be 
exposed and desensitized to extreme violence at an early age.
    Another concern for law enforcement is the increase in the use of 
technology and social media by criminal groups such as MS-13. We've 
found that gangs are exploiting new technologies largely for the 
anonymity that messaging applications afford. Many resort to the use of 
these technologies with the hopes of thwarting law enforcement efforts.
    In January 1992, the FBI announced the Safe Streets Violent Crime 
Initiative, designed to allow each field office to address violent 
street gangs and drug-related violence through the establishment of FBI 
sponsored, long-term, proactive task forces focusing on violent gangs, 
crime of violence, and the apprehension of violent fugitives. The 
Violent Gang Safe Streets Task Force became the vehicle through which 
all of the Federal, State, and local law enforcement agencies joined 
together to address the violent crime plaguing their communities. The 
FBI's Safe Streets and Gang Unit administers 169 Violent Gang Safe 
Streets Task Forces Nation-wide, staffed by approximately 800 FBI 
agents, 1,375 State and local law enforcement personnel, and 58 other 
Federal law enforcement agents. The Safe Streets Task Force concept 
expands cooperation and communication among Federal, State, and local 
law enforcement agencies, increasing productivity and avoiding 
duplication of investigative efforts.
    Here in New York, the FBI's Long Island Gang Task Force (LIGTF) is 
part of the Safe Streets Task Force network. Since 2003, the task force 
has been dedicated to protecting the communities on Long Island from 
the threat of gang violence, and considers MS-13 to be a top priority. 
The task force, currently composed of agents and officers from the FBI; 
Suffolk County Police Department; Nassau County Police Department; 
Nassau County Sheriff's Department; Suffolk County Sheriff's 
Department; Suffolk County Probation; Rockville Centre Police 
Department; New York State Police; Hempstead Police Department; and the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives, is a model that 
allows us to bring all essential stakeholders under one roof to address 
the most violent crimes crippling our neighborhoods.
    Since the establishment of the task force, the largest and oldest 
Federal gang task force on Long Island, hundreds of MS-13 members, 
including dozens of clique leaders, have been convicted on Federal 
felony charges in the Eastern District of New York. This has allowed us 
to dismantle some of the most violent cliques in the area.
    Since 2010, the task force has arrested over 200 MS-13 members, 
resulting in the successful prosecution of members involved in over 35 
homicides. A majority of those MS-13 members have been convicted on 
Federal racketeering charges for participating in murders, attempted 
murders, and assaults. Since 2016, MS-13 is believed to be responsible 
for more than 20 homicides in Suffolk and Nassau Counties.
    Over the past few months, we've continued to surge resources to 
work the threat, both internally and with respect to our partner 
agencies on the task force. We've increased participation on our task 
force by adding officers from the New York State Police, and we've 
enhanced our intelligence capabilities by developing an intelligence 
fusion group, which is composed of intelligence personnel from the 
represented agencies. We've also strengthened our relationship with the 
Suffolk County Police Department, to include our mutual agreement that 
all MS-13 homicide investigations in Suffolk County will be 
investigated jointly by the LIGTF and the Suffolk County Police 
Department's homicide squad. Throughout the country, the FBI continues 
to uphold the task force model as we confront threats with the help of 
our various law enforcement partners, in particular, our colleagues 
from Homeland Security Investigations.
    As the domestic representative for the Director of National 
Intelligence for FBI field offices in Newark, Philadelphia, New York, 
Albany, and Buffalo, I've gladly accepted the responsibility of serving 
as a delegate for senior field representatives throughout the 
intelligence community (IC) in leading the endeavor to create a 
coordinated and effective IC enterprise in defense of our homeland and 
homeland security efforts. This is an opportunity for us to engage in 
dialog with our colleagues while ensuring a higher level of cooperation 
as we continue to integrate our intelligence efforts.
    Additionally, from an international perspective, the FBI's 
Transnational Anti-Gang Task Forces (TAGs) continue to work with our 
partners to eradicate gangs and gang violence Nation-wide. Established 
in El Salvador in 2007 through the FBI's National Gang Task Force, 
Legat San Salvador, and the United States Department of State, each TAG 
is a fully operational unit responsible for the investigation of MS-13 
operating in the Northern Triangle countries of Central America--El 
Salvador, Guatemala, and Honduras--and threatening the United States. 
This program combines the expertise, resources, and jurisdiction of 
participating agencies involved in investigating and countering 
transnational criminal gang activity in the United States and Central 
America. These groups--headed by FBI agents who lead vetted teams of 
National police and prosecutors--coordinate with FBI legal attaches 
assigned to those regions and with the Bureau's International 
Operations Division.
    Through the task force we reap the benefits of local intelligence, 
which allows us to apply a National and international approach to the 
problem. We're currently focused on identifying MS-13 membership in the 
United States, and we're working to establish an international standard 
for understanding elements of the gang's structure, its members, and 
its associates. Using overseas resources to identify and target 
individuals and organizations that negatively affect our local field 
offices has proven successful. In fact, this partnership contributed to 
the capture of two FBI Top Ten fugitives Edwin Ernesto Rivera-Gracias 
in 2013, and Juan Elias Garcia in 2014. Both men were wanted for 
murder. Specifically, Juan Elias Garcia was wanted for the execution-
style murder of a 19-year-old New York woman and her 2-year-old son. 
Based on the success of the TAG Task Force in El Salvador, additional 
TAG Task Forces have been established in Guatemala and Honduras.
    In summary, the FBI has effectively used task forces in an effort 
to combat the MS-13 threat, both on Long Island and throughout the 
country, by combining the tools of our local, State, Federal, and 
international law enforcement partners. MS-13 will continue to be a top 
priority as we have determined they intend to continue to expand and 
employ intimidation tactics while engaging in increasingly violent 
crimes.
    We further assess they will continue to capitalize on the use of 
encrypted communications between members and associates, both in the 
United States and abroad, which could impede enforcement efforts. For 
this reason, the relationships we've established with our partners, 
both at home and abroad, will continue to prove essential in 
identifying, combating, and eliminating the threats posed by MS-13.
    Chairman King, Ranking Member Rice, and Members of the committee, 
thank you again for this opportunity to discuss gang violence on Long 
Island and our efforts to combat the MS-13 threat. Mr. Chairman, we are 
grateful for the leadership that you and this committee have provided 
to the FBI, and we thank you for your continuing support. I look 
forward to answering any questions you may have.

    Mr. King. Thank you, Mr. Sweeney. That was FBI efficiency, 
right on the button, 5 minutes. Thank you very much for your 
testimony.
    Our next witness is Angel Melendez, who is special agent in 
charge of the New York Field Office for Immigration and Customs 
Enforcement, Homeland Security Investigations, HSI. Mr. 
Melendez began his career in 1996 as a special agent for the 
U.S. Customs Service in San Juan, Puerto Rico. He has served in 
a number of leadership positions, including special agent in 
charge of the San Juan, Puerto Rico HSI office. In July 2016, 
he was named as the special agent in charge of the New York HSI 
office.
    Mr. Melendez, I want to again thank you for cooperating 
with my office, for the briefings you have given me. With that, 
you are recognized for 5 minutes.

   STATEMENT OF ANGEL M. MELENDEZ, SPECIAL AGENT IN CHARGE, 
   HOMELAND SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Melendez. Thank you, and good morning, Chairman King, 
Ranking Member Rice, and Members of the Long Island community. 
As special agent in charge for U.S. ICE's Homeland Security 
Investigations in New York, I would like to thank you for the 
opportunity to appear before you today to discuss our efforts 
to investigate, disrupt, and dismantle violent gang activity 
across the United States. My oral testimony today will focus on 
HSI's efforts on combatting transnational gang violence by the 
Mara Salvatrucha, or MS-13, on Long Island.
    Through violent crime, MS-13 terrorizes our communities. In 
the last year alone, Long Island has witnessed 11 murders 
attributed to MS-13. The gruesome quadruple homicide of four 
Long Island teenagers at the hands of MS-13 just this April 
shocked our Nation. HSI does not take this lightly now, nor 
have we in the past.
    In 2005, to combat transnational gangs, we initiated 
Operation Community Shield. HSI has developed a multifaceted 
approach to attacking violent crime alongside our domestic and 
foreign law enforcement partners. To date, this program has led 
to the arrest of over 7,000 MS-13 affiliates across the Nation.
    HSI's ever-evolving strategy to investigate and disrupt MS-
13, particularly its pipeline, is informed by how the gang 
operates. Let me touch on three critical points.
    First, MS-13 exploits illicit pathways in Central America 
to further its mission to rape, control, and kill. HSI, through 
its unique border authorities and international footprint, is 
targeting these illicit pathways. In New York, we established 
an extra-territorial criminal tribal strike force which, in 
partnership with DOJ, investigates foreign-based human 
smuggling networks.
    Second, MS-13 is increasing its membership and recruitment. 
Within the last few years, more than 5,000 unaccompanied alien 
children from the Northern Triangle countries have resettled in 
Long Island. Once here, MS-13 can prey upon the vulnerability 
of these and other children who may lack family and community 
ties. In fact, schools have become ground zero for MS-13 
recruitment. Children may face retribution from the gang for 
refusing to join and become part of its ranks. Rapidly, they 
transform into the lethal MS-13 gang members that they once 
feared.
    Third, MS-13 cannot survive without money. Investigations 
have revealed that MS-13 maintains a sophisticated financial 
network that supports its nefarious activities. As we have 
learned, MS-13 generates illicit income through extortion, 
prostitution, the collection of membership dues, and illicit 
trafficking. HSI was instrumental in having MS-13 designated as 
a transnational criminal organization by the Department of the 
Treasury in 2012. This designation is an additional tool that 
allows us to effectively attack MS-13's financial 
infrastructure.
    In addition to focusing on the MS-13 pipeline, HSI targets 
members for criminal prosecution and removal. Since October 
2014 to the present, HSI, along with its partners, have made 
842 criminal and 273 administrative arrests of MS-13 gang 
affiliates across the country. In the same time frame, HSI New 
York, along with its partners, have made 109 criminal and 55 
administrative arrests of MS-13 gang affiliates in Long Island 
alone.
    With the invaluable partnership of the police departments 
and sheriff departments of Suffolk and Nassau Counties, HSI has 
kept its proverbial finger on the pulse of MS-13 activity 
across Long Island. In response to the recent uptick in 
violence executed by MS-13 across Long Island, HSI New York, 
partnering with ICE's enforcement and removal operations, 
initiated Operation Matador. It brings together our DHS and law 
enforcement partners in a unified approach to combating MS-13's 
growth. It integrates our key Homeland Security capabilities--
enforcement, interdiction, intelligence, border security, 
removal, and also public safety. In the last 5 weeks since 
launching Matador, this initiative yielded 45 arrests of known 
or suspected MS-13 affiliates.
    Although we have made strides in attacking the MS-13 
problem, we have limited resources and must continue to be 
proactive as we forge ahead with this critical mission. 
Committed to working alongside our law enforcement partners, 
HSI continues to disrupt MS-13 through enforcement of criminal 
and civil immigration statutes, as well as active gang 
investigations in Long Island, throughout the United States, 
and throughout the world.
    Chairman King, Ranking Member Rice, I thank you again for 
the opportunity to appear before you today and for your 
continued support. I would be pleased to answer any questions 
you may have. Thank you.
    [The prepared statement of Mr. Melendez follows:]
                Prepared Statement of Angel M. Melendez
                             June 20, 2017
    Chairman King, Ranking Member Rice, and distinguished Members: As 
special agent in charge for U.S. Immigration and Customs Enforcement 
(ICE), Homeland Security Investigations (HSI) in New York, I would like 
to thank you for the opportunity to appear before you today to discuss 
our efforts to disrupt, dismantle, and investigate violent gang 
activity within the United States. The official statement I have 
submitted and my oral testimony today will focus specifically on HSI's 
focus on combatting transnational gang violence by the Mara 
Salvatrucha, or MS-13, on Long Island.
    ICE has the most expansive investigative authority and largest 
force of criminal investigators in the Department of Homeland Security 
(DHS). ICE's National and global footprint enables us to leverage our 
broad statutory authority to uphold public safety and support border 
enforcement. And the key to our success against gangs like MS-13 is our 
multifaceted approach to attacking violent crime with our State, local, 
Tribal, and foreign law enforcement partners.
    During his first 2 weeks in office, President Trump signed a series 
of Executive Orders (EOs) that laid the policy groundwork for the 
Department and ICE to carry out the critical work of securing our 
borders, enforcing our immigration laws, and ensuring that individuals 
who pose a threat to National security or public safety cannot enter or 
remain in the United States. These EOs establish the administration's 
policy of effective border security and immigration enforcement through 
the faithful execution of the laws passed by Congress.
    The heightened enforcement of our Nation's immigration laws in the 
interior of the United States is critically important to the National 
security and public safety of the United States. Aliens who illegally 
enter the United States, or even those who overstay or otherwise 
violate the terms of their visas, have violated our Nation's laws and 
can pose a threat to National security and public safety. This is 
particularly true for aliens who engage in criminal conduct in the 
United States.
    As directed by the President's Executive Order 13773, Enforcing 
Federal Law with Respect to Transnational Criminal Organizations and 
Preventing International Trafficking, ICE will continue to give a high 
priority and devote sufficient resources to dismantling TCOs and 
subsidiary organizations. ICE will continue to focus on cooperative 
work and data sharing with other Federal agencies, as well as work with 
foreign counterparts by sharing intelligence and law enforcement 
information when appropriate and permitted by law.
                       ms-13 activity in new york
    MS-13 are primarily immigrants or descendants of immigrants from 
the Northern Triangle--El Salvador, Honduras, and Guatemala. Through 
kidnappings, murders, and other violent crime, MS-13 terrorizes 
communities. Since the beginning of 2017, New York has seen an uptick 
in gang violence, with 11 murders attributed to MS-13 alone. The 
gruesome murders of four Long Island teenagers at the hands of MS-13 
just this April shocked our Nation.
    HSI does not take this lightly. To disrupt the MS-13 threat, HSI 
has uncovered and pieced together MS-13's sophisticated communication 
and financial network. As we have learned, MS-13's primary source of 
income is generated through extortion, prostitution, membership dues, 
and illicit trafficking. Targeting MS-13's assets, HSI was pivotal in 
having MS-13 designated as a transnational criminal organization by the 
Department of Treasury's Office of Foreign Assets Control (OFAC).
                     disrupting the ms-13 pipeline
    HSI's ever-evolving strategy to investigate and disrupt MS-13 is 
informed by how the gang operates. Let me touch on three critical 
points:
First, Illicit Pathways
    MS-13 exploits illicit pathways throughout Central and South 
America to further its mission to ``rape, control, and kill.''
    HSI, through its unique border authorities and vast international 
footprint, is targeting these illicit pathways. HSI New York 
established an Extraterritorial Criminal Travel Strike Force, which, in 
partnership with Department of Justice (DOJ), investigates foreign-
based Human Smuggling Networks that pose a threat to the United States. 
Just this May, ICE implemented a three-phase plan to target the human 
smuggling organizations that MS-13 exploits to bring unaccompanied 
alien children into the United States.
Second, Recruitment
    Illicit pathways go hand-in-hand with MS-13 increasing its 
membership. Once these children are smuggled into the United States, 
they become prime targets for enlistment into the gang. Since the 
beginning of fiscal year 2015, more than 5,000 unaccompanied alien 
children have resettled in Long Island. MS-13 preys on their 
vulnerability; some of these children may lack familial relationships 
or community ties. In fact, reports suggest that MS-13 attempts to 
recruit in some schools and pressures children into joining with the 
threat of retribution.
    With the invaluable partnership of local law enforcement, HSI has 
kept its proverbial finger on the pulse of MS-13 activity across Long 
Island.
Third, Financing
    MS-13 cannot survive without money. Investigations have revealed 
that MS-13 maintains a sophisticated communication and financial 
network that supports its nefarious activities. As we have learned, MS-
13 generates illicit income through extortion, prostitution, membership 
dues, and illicit trafficking.
                       operation community shield
    In 2005, ICE initiated Operation Community Shield (OCS), a cross-
border effort to combat transnational criminal organizations. HSI 
locates, investigates, and arrests gang members to get them off our 
streets. Whenever possible, ICE will pursue and effectuate removal 
orders to remove gang members from the United States.
    OCS is the primary platform through which HSI executes its anti-
gang initiatives, including Specialized Urban Response--Gang 
Enforcement (SURGE) operations. From March 26, 2017 to May 6, 2017, a 
Nation-wide SURGE operation led to 1,098 criminal arrests and 280 
administrative immigration arrests. In the course of those operations, 
HSI seized 238 firearms, nearly $500,000 in currency, and over 271 
kilograms of illicit narcotics.
    Since this operation started in 2005, HSI and its partner agencies 
have made over 57,000 gang-related criminal and administrative 
immigration arrests. 7,000 of these arrests were affiliated with MS-13.
    From fiscal year 2016 to fiscal year 2017 (as of June 4, 2017), HSI 
has made over 8,000 gang-related criminal arrests, leading to over 
2,600 convictions. During this same time period, HSI made 1,117 
administrative immigration arrests of gang members.
    Much of this enforcement activity targets MS-13. From fiscal year 
2016 to fiscal year 2017 (as of June 4, 2017), HSI made 602 criminal 
arrests of MS-13 gang leaders, members, and associates that resulted so 
far in 153 convictions. And during this same time period, HSI made 170 
administrative immigration arrests of MS-13 members. HSI has 87 
domestic and international gang investigations targeting MS-13 in Long 
Island and throughout the country.
         federal, state, and local law enforcement partnerships
    In response to the recent spate of extreme violence perpetrated by 
MS-13, HSI New York initiated Operation Matador (OPMAT). This 
interagency DHS endeavor is designed to combat the proliferation of MS-
13 recruitment, membership, and criminal activity.
    The framework underlying OPMAT integrates various missions--
enforcement, interdiction, intelligence, border security, and 
ultimately, public safety.
    OPMAT is able to disrupt MS-13 through five key attributes:
    1. Intelligence gathering;
    2. Actionable lead development;
    3. Targeted enforcement;
    4. Criminal and Racketeer Influenced and Corrupt Organization 
        (RICO) investigation development; and
    5. Community outreach to at-risk youth in the affected cities.
    As a result of this on-going operation, to date, HSI has made 35 
criminal and administrative arrests; 30 of them are known or suspected 
MS-13 members. It bears repeating that our law enforcement partners are 
crucial to OPMAT's success, including the Nassau County Police 
Department, Suffolk County Police Department, and the New York Police 
Department (NYPD).
                           operation matador
    In response to the recent uptick of extreme violence perpetrated by 
MS-13, HSI-NY's latest endeavor is Operation Matador. It brings 
together our DHS partners in a unified approach to combatting MS-13's 
growth by integrating key missions--enforcement, interdiction, 
intelligence, border security, and ultimately, public safety. As a 
result of this on-going operation, to date, HSI has made 35 criminal 
and administrative arrests; 30 of them are known or suspected MS-13 
members.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. ICE 
is committed to investigating MS-13 gang violence and disrupting the 
MS-13 pipeline.
    I would be pleased to answer any questions you may have.

    Mr. King. Thank you, Mr. Melendez. Thank you very much.
    Our next witness is Suffolk County Police Commissioner 
Timothy Sini. Commissioner Sini was appointed by commissioner 
of the Suffolk County Police Department in January 2016. He 
serves as a representative on the White House's Office of Drug 
Control Policy for the New York-New Jersey region on the HIDTA 
team. He is also the executive director of the Suffolk County 
Criminal Justice Coordinating Council. He previously served as 
the assistant deputy county executive for public safety, and he 
began his career in the United States Attorney's Office in the 
Southern District of New York.
    I have to say, I have worked very closely with Commissioner 
Sini on this over the last several months, this whole MS-13 
issue, and he has provided me with some very invaluable 
intelligence information.
    So with that, Commissioner Sini, you are recognized.

  STATEMENT OF TIMOTHY D. SINI, POLICE COMMISSIONER, SUFFOLK 
                        COUNTY, NEW YORK

    Mr. Sini. Thank you, Chairman. Thank you, Ranking Member 
Rice. I want to thank the committee for the opportunity to 
appear before it today. Chairman, I want to thank you for your 
attention to this issue and your general support of law 
enforcement. It is very much appreciated. Ranking Member Rice, 
it is very reassuring to have an effective prosecutor in 
Congress to be looking at this issue. So I thank you for the 
opportunity.
    I am going to keep my opening remarks quite brief. I 
submitted detailed testimony. I also testified before the U.S. 
Senate Committee on Homeland Security and Governmental 
Operations.
    I thought what I would do is detail the strategy that we 
are employing here in Suffolk County and the region, talk about 
some of the ways in which the Federal Government can further 
assist the local municipalities who are addressing this issue 
in the trenches, talk about some of the strategies that I 
talked about before the Senate, and give an update as to where 
we are since the Senate testimony.
    But essentially the name of the game, and everyone at this 
table will tell you, is gathering intelligence and identifying 
known MS-13 gang members. It is important to be targeting these 
gang members relentlessly, and without the intelligence, we 
cannot do that. So collecting intelligence is the first step, 
and then creating priorities and strategic subject lists and 
targeting known MS-13 gang members relentlessly.
    In Suffolk County, we utilize our gang officers stationed 
in our precinct, as well as members of our Firearms Suppression 
Team and other police officers to do street enforcement 
targeting these particular MS-13 gang members, and that does a 
lot of different things at once. It suppresses crime, which is 
why you have seen such a dramatic reduction in crime in 
affected areas--Brentwood, Central Islip, and other areas. But 
it also collects intelligence and generates evidence that can 
be used later on in larger cases that can effectively dismantle 
this gang.
    All the while we are doing that street enforcement--and I 
should take a step back and say that in connection with that 
street enforcement, the Suffolk County Police Department has 
made over 220 MS-13 arrests since September 2016. Since Nisa 
and Kayla were murdered, we have arrested over 220 MS-13--we 
have made over 220 MS-13 arrests of approximately 160 
individual MS-13 gang members. So that targeting has been 
occurring at record clips.
    All the while we are working with our Federal law 
enforcement partners, particularly the FBI through the Safe 
Streets Task Force, to work RICO cases, to build RICO cases. 
RICO is a very effective Federal statute that allows us to 
dismantle gangs such as MS-13. It carries stiff penalties, it 
acts as an umbrella where we can bring in a large number of MS-
13 gang members to prosecute, and it is a great way to go after 
the leadership as well.
    Of course, since September 2016, in conjunction with the 
FBI Safe Streets Task Force and the U.S. Attorney's Office for 
the Eastern District of New York, we have brought a 13-
defendant indictment which included the murders of Nisa and 
Kayla, as well as Jose Pena Hernandez. So RICO is a very 
effective tool.
    In addition, we are working with the Department of Homeland 
Security to make sure that we are targeting individuals, active 
MS-13 gang members for detention and removal, when appropriate. 
Oftentimes, we are in the position to arrest and criminally 
prosecute individuals, and that is the best-case scenario, to 
bring cases against these individuals, hold them accountable, 
take them off our streets. Sometimes law enforcement is not in 
the position to make a criminal arrest, for a variety of 
different reasons, and the Department of Homeland Security is 
in a position to use its immigration tools, its civil tools to 
take these active MS-13 gang members off the streets and take 
dangerous individuals off the streets and commence removal 
proceedings against them. So it is another tool that we are 
using here in Suffolk County.
    We are, of course, enhancing our police presence in 
affected areas as well, and we are utilizing intelligence to 
increase our police presence in affected areas, and we 
partnered recently with the New York State Police to 
dramatically increase our presence, and I think that is being 
recognized by the communities and also contributing to the 
decrease in crime.
    Law enforcement will continue those strategies and continue 
to fine-tune those strategies, and we will weed out the 
dangerous gang members from our streets. But it is important, 
too, that we work on the other side, we work on the gang 
prevention and intervention side, because if we are weeding out 
dangerous gang members from our communities but MS-13 is 
increasingly recruiting, we are not going to solve this 
problem. So we have to fight it on both ends. We are moving 
forward with several different gang prevention programs in our 
communities, but more needs to be done on that front.
    When I testified before the Senate, I asked very 
specifically--I discussed very specific proposals that I 
thought would help in our fight, and those are the following:
    More AUSAs right here in this building. This office does 
not have sufficient AUSAs to prosecute the number of cases that 
we need to do. So I would again reiterate my request for 
additional Federal assets in the form of additional AUSAs for 
the Long Island Criminal Division.
    Improved intelligence sharing. Since I last testified, I am 
pleased to say that both the FBI and the Department of Homeland 
Security are launching intelligence centers specifically 
relating to MS-13. In addition, I have been asked to join a 
team that is being organized by the Department of State to work 
with foreign nations, including El Salvador, to establish a 
fusion center outside the country. So I think we are making 
tremendous headway on that front.
    Third, additional Federal funding to offset patrolling 
costs. The Suffolk County Police Department has a grant in the 
queue right now for half-a-million dollars that would help us 
offset patrolling costs that target affected areas, areas that 
are affected by MS-13. So I would reiterate that request.
    Additional Federal funding for gang prevention programs, I 
would reiterate that request.
    A hard look at the implications of the UAC program. These 
are some of the most vulnerable children in our communities, 
folks who are coming here unaccompanied, first time in the 
United States, being placed in our communities, and there is 
very little Federal oversight or resources connected to that 
program. Again, I am happy to see that the Congressman 
introduced HR-2459 to take a hard look at that program and 
figure out ways to decrease the vulnerability to those 
individuals to gang recruitment.
    I do indeed look forward to answering any questions by the 
committee. Again, I want to thank the committee for its 
attention to this very important issue.
    [The prepared statement of Mr. Sini follows:]
                 Prepared Statement of Timothy D. Sini
                             June 16, 2017
                           executive summary
    My name is Timothy D. Sini, commissioner of the Suffolk County 
Police Department. I appreciate the opportunity to provide testimony 
regarding MS-13 in Suffolk County, New York, and ways in which we can 
work together to effectively eradicate this gang from our communities. 
Although Suffolk County remains one of the safest counties in the 
Nation, we have recently experienced an increase in MS-13 gang 
violence. Specifically, since January 1, 2016, there have been 17 
homicides in Suffolk believed to be linked to MS-13. In order to 
eradicate MS-13 from our communities, we must employ a multi-pronged 
strategy that includes:
  <bullet> collaborative efforts to collect and share intelligence 
        regarding the gang;
  <bullet> relentless targeting of known MS-13 gang members for arrest, 
        prosecution, and removal;
  <bullet> Federal prosecutions of MS-13 gang members and its 
        leadership under the RICO statute;
  <bullet> enhanced and targeted police presence and patrols in 
        affected areas; and
  <bullet> significant investments in gang prevention and intervention 
        strategies, with a particular focus on the Unaccompanied Alien 
        Children (``UAC'') population.
                              introduction
    Suffolk is New York's fourth-largest county situated some 20 miles 
east of New York City, covering 911 square miles and 1,000 miles of 
coastline on the eastern end of Long Island.
    Suffolk has a diverse population of approximately 1.5 million 
residents. According to the latest Census data, the population is 84.9 
percent white and 8.4 percent African American, with 18.6 percent of 
the population identifying as Latino or Hispanic ethnicity. The median 
income is $88,663, and 7.8 percent of the county's residents live in 
poverty.
    The Suffolk County Police Department is one of the 15 largest 
police departments in the country, with approximately 2,500 sworn 
officers and 1,000 civilian employees. We are responsible for all 
police services in the five western towns of Suffolk County, and a wide 
variety of investigative and law enforcement support functions 
throughout the county.
    Contrary to recent sentiments in the National media, Suffolk 
remains one of the safest counties in the United States. We are 
currently experiencing the lowest crime rate since we began collecting 
reliable crime statistics in 1975. Specifically, in 2016, Suffolk 
County had 34 murders/manslaughters, 84 sex crimes, 540 robberies, 893 
aggravated assaults, 1,734 burglaries, 15,522 larcenies, and 1,070 
motor vehicle thefts. In 2017, we are continuing to drive crime down to 
historic levels, with a year-to-date 12.9 percent reduction in violent 
crime, 10.8 percent reduction in property crime and 10.9 percent 
reduction in all index crimes.
    Despite these historic reductions in crime, we have recently 
experienced an increase in gang violence connected to Mara Salvatrucha 
or the MS-13 gang--designated in 2012 by the U.S. Department of the 
Treasury as a ``transnational criminal organization.'' In 2016 and year 
to date in 2017, Suffolk experienced an increase in homicides compared 
to 2015, which is the only category of index crimes to rise. This 
increase is directly attributable to a rapid resurgence in MS-13 
violence in identified areas of the county and is an inverse trend to 
all other crime categories.
    Specifically, since January 1, 2016, of the 45 homicides that 
occurred in Suffolk, 17 of those are believed to be linked to MS-13. We 
currently have approximately 400 MS-13 gang members identified in the 
county, organized in approximately nine cells called ``cliques.'' Many 
of these cliques have connections to other jurisdictions, including, 
but not limited to, New Jersey, Maryland, Virginia, Nassau County (Long 
Island), and New York City.
                  ms-13 gang members in suffolk county
    Identified MS-13 gang members are concentrated in several hamlets 
in Suffolk County with the largest number in a community named 
Brentwood, which is a community of more than 60,000 residents. 
According to the latest Census data, Brentwood's population is 48.4 
percent white and 16.4 percent African American, with 68.5 percent of 
the population identifying as Latino or Hispanic ethnicity. There are 
more than 20,000 students in the Brentwood school district. The second-
largest concentration of MS-13 gang members is in Central Islip, which 
is a community of approximately 35,000 residents. According to the 
latest Census data, Central Islip's population is 43.6 percent white 
and 25 percent African American, with 52.1 percent of the population 
identifying as Latino or Hispanic ethnicity.
    In Suffolk County, active MS-13 gang members are predominantly 
males ranging in age from 16 to 29. The median age of recent MS-13 
arrestees is 18, however we have become aware of associates as young as 
10 years of age.
    Most MS-13 gang members have connections to El Salvador, Guatemala, 
or Honduras. Of a sampling of 143 active gang members plus 11 MS-13 
victims, 89 entered the United States illegally and currently do not 
have legal status (58.8 percent) (39 of whom are Unaccompanied Alien 
Children (``UACs'')), 48 are of unknown immigration status, and 17 have 
legal status (temporary or otherwise). I endeavor to provide updated 
data during my testimony.
                       crimes committed by ms-13
    In Suffolk County, MS-13 engages in a variety of criminal activity, 
including, but not limited to, assaults, murder, drug dealing, 
extortion, robberies, and burglaries. Intelligence indicates that many 
MS-13 gang members hold wage-paying jobs, and are not focused primarily 
on income-generating crimes such as drug dealing, differentiating them 
from other street gangs in Suffolk County. Rather, MS-13 has engaged in 
violence for the sake of violence, to increase the notoriety of the 
gang and to cause the community to fear the gang and its members. 
However, that is not to understate the extent of other criminal 
activity committed by the MS-13 gang in the Northeast region.
    In 2016, the most frequent reported crime connected to MS-13 was 
assault. The signature weapon used by MS-13 is the machete. For 
example, on July 17, 2016, members of MS-13 brutally attacked an 
individual in Brentwood with a machete, causing severe wounds to the 
individual's face making him unrecognizable. MS-13 gang members 
perpetrated this brutal assault because they believed that the victim 
was associating with a rival gang.
    MS-13 members also commit murder, often targeting victims who they 
perceive as disrespecting the gang. Since 2013, 27 murders in Suffolk 
County have been attributed to MS-13, occurring in 7 different 
communities. This represents approximately 21 percent of all murders 
occurring since that time. Moreover, approximately 38 percent of 
murders occurring in Suffolk County in 2016 and 2017 combined are 
believed to be connected to MS-13. In many of the cases, multiple 
assailants are involved in the crime.
    On September 13, 2016, members of MS-13 brutally beat two girls to 
death in Brentwood--Nisa Mickens and Kayla Cuevas. Both were Brentwood 
High School students, and were 15 and 16 years of age, respectively. 
Shortly before her murder, Kayla had argued with an MS-13 gang member 
in school. In collaboration with the FBI, the Suffolk County Police 
Department arrested the perpetrators of that crime, and they are 
currently being prosecuted by the United States Attorney's Office for 
the Eastern District of New York.
    Those murders sparked a gang eradication strategy launched by the 
Suffolk County Police Department and our law enforcement partners, 
which to date has resulted in approximately 250 arrests of 
approximately 187 individual MS-13 gang members. The initiative also 
led to the discovery of the skeletal remains of three males in the 
Brentwood area, all of whom are believed to have been murdered by 
members of MS-13. One of those murders--the murder of a 19-year-old 
male named Jose Pena-Hernandez--was also charged by the United States 
Attorney's Office for the Eastern District of New York. MS-13 gang 
members murdered Pena-Hernandez because they believed he violated the 
gang's internal rules.
    Most recently, in April of this year, MS-13 gang members committed 
a quadruple homicide in Central Islip, Suffolk County. This was one of 
the largest and most brutal mass murders committed in Suffolk County's 
history. The victims were all males--two were 18 years old, and the 
other two were 16 and 20 years old. Central Islip is a hamlet located 
adjacent to Brentwood, and, as noted, has the highest concentration of 
MS-13 gang members in the county outside Brentwood. The victims were 
found in the Clayton Avenue Park in Central Islip with significant 
trauma about their bodies. Their injuries were consistent with assault 
by machete. The investigation of the quadruple homicide remains active.
                              recruitment
    MS-13 sustains itself by constantly attempting to recruit new 
members. MS-13 gang members recruit in our schools and communities. 
They prey on the vulnerable, frequently targeting young people who 
recently immigrated to this country. They often target individuals who 
lack the support of close relatives and healthy social networks, using 
threats and acts of violence to coerce those reluctant to join. Several 
factors lead individuals to become members of MS-13, including, but not 
limited to, social alienation, the need to be part of a group, a sense 
of cultural unity, the promise of protection, and economic gain.
    MS-13 members also recruit children placed in communities in 
Suffolk County through the UAC program. From the beginning of 2014 
through March 2017, 4,624 UACs have been placed in Suffolk County 
alone, making it one of the largest recipients of UACs in the country. 
The vast majority of these children come from El Salvador, Honduras, 
and Guatemala, where MS-13 has a significant presence. Many of these 
children are vulnerable to gang recruitment because they are young, 
unaccompanied, adjusting to a new country, culture, and language, and 
seeking a sense of belonging. This is compounded by the fact that the 
sponsors of these children in some cases prove not to be suitable 
guardians.
    In sum, while the overwhelming majority of these children live law-
abiding lives, UACs are undoubtedly a source of recruitment for MS-13. 
Of a sampling of 156 active gang members in Suffolk County, 39 are 
Unaccompanied Alien Children, and 7 of the 13 defendants recently 
charged in a RICO indictment in the Eastern District of New York are 
UACs. It is not entirely clear, however, the percentage of UACs who 
came into the United States as MS-13 gang members, were recruited while 
in Federal custody or were preyed upon once they reached Suffolk. In 
consultation with our Federal partners, we have recently launched a new 
intelligence-gathering protocol to assist in collecting that 
information.
                 gang eradication strategy of the scpd
    As a result of this recent violence, the Suffolk County Police 
Department launched a multi-pronged gang eradication strategy. It 
involves law enforcement efforts, as well as school-based and 
community-based initiatives to reduce gang recruitment and enlistment.
    The law enforcement strategy is centered on gathering as much 
intelligence as possible regarding MS-13 and its members, with the 
specific objective of identifying MS-13 gang members and locations 
where they congregate. We use a variety of tactics to collect 
intelligence, including, but not limited to, debriefing all of our 
arrestees. The Department prioritizes the targeting of known MS-13 gang 
members by creating strategic subject lists of known MS-13 gang 
members, and then assigns police officers with expertise in gang 
enforcement to particular gang members to perform targeted enforcement. 
That targeted enforcement includes, but is not limited to, effectuating 
street arrests of known MS-13 gang members. Since we launched this 
initiative in September 2016, we have made approximately 220 MS-13 gang 
arrests of approximately 157 individual MS-13 gang members. This 
targeted enforcement suppresses crime, results in the collection of 
intelligence, and generates valuable evidence for Federal prosecutions 
down the road.
    As we engage in this targeted enforcement, we are working hand-in-
hand with our law enforcement partners through the Long Island FBI 
Safes Street Task Force, which is run by the FBI and consists of law 
enforcement officials from numerous agencies. Working with the FBI Task 
Force, and the United States Attorney's Office for the Eastern District 
of New York, we strategically select MS-13 gang members for Federal 
prosecution under the RICO statute, which is a highly effective tool to 
dismantle gangs such as MS-13. The RICO statute carries stiff 
penalties, allows us to effectively convert street crimes into RICO 
offenses, and serves as a tool to cast a large net over the gang and 
negatively impact its leadership.
    We also work with the Department of Homeland Security in a variety 
of ways. For example, we share intelligence with Homeland Security 
regarding known gang members in order to facilitate the commencement of 
removal proceedings against MS-13 gang members. Although it is often 
our objective to arrest and prosecute MS-13 gang members for Federal 
criminal offenses in order to prevent them from merely reentering after 
deportation, circumstances do arise when we are not able to effectuate 
a criminal arrest, and the Department of Homeland Security is able to 
utilize its immigration enforcement tools to remove these dangerous 
people from our streets. To date, as a result of this partnership, the 
Department of Homeland Security has detained approximately 36 MS-13 
gang members in Suffolk County based on gang identification and civil 
violations of the immigration law. It is important to highlight that 
this component of our overall strategy is surgical in nature in that it 
targets only active MS-13 gang members. In addition, we automatically 
notify the Department of Homeland Security when we arrest an individual 
for a misdemeanor or felony who was not born in this country so that 
immigration authorities can take appropriate action, if any.
    Although cooperation with the Department of Homeland Security is 
mission-critical to removing dangerous gang members from our streets, 
the Suffolk County Police Department must also ensure that undocumented 
individuals feel comfortable providing information to law enforcement. 
To this end, our officers do not inquire into the immigration status of 
those individuals who come to the police as a witness, victim, or 
someone merely seeking police assistance. The mission of the Police 
Department is to provide and maintain a safe environment for every 
person in Suffolk County regardless of that person's residency or 
immigration status. If individuals believe that they cannot freely 
cooperate with law enforcement because of their immigration status, the 
mission of the Police Department and the safety of all residents are 
compromised.
    In addition to targeting known gang members, and working with our 
Federal law enforcement partners to remove MS-13 gang members from our 
streets, we have also enhanced our police presence, both uniformed and 
plainclothes, in affected areas. We recently partnered with the New 
York State Police to assist us in this effort.
    We recognize, however, that targeted enforcement and patrols will 
not alone lead to the eradication of MS-13 from our communities. As law 
enforcement weeds gang members from our communities, we need to invest 
in school-based and community-based programs to reduce gang recruitment 
and involvement. As noted, MS-13 preys on our vulnerable young people, 
and if we do not provide the structure that these young people need to 
prosper, MS-13 will.
    To this end, we utilize an arsenal of community-based intervention 
strategies to prevent and deter gang violence, such as custom 
notifications, call-ins, and youth conflict insertions. We work closely 
with our schools to identify at-risk children to intervene in effective 
ways to prevent them from joining a gang or to assist them in getting 
out of a gang. Suffolk County is also investing in an early 
intervention gang prevention program in Brentwood and other communities 
in Suffolk County. Utilizing a not-for-profit organization that 
specializes in gang prevention, the program--called the CHANGE 
program--will target vulnerable children who are at risk of gang 
involvement and provide them with much-needed services, including, but 
not limited to, social work services, psychological counseling, 
educational and vocational assistance, and much more. The program also 
aims to involve the family of the child so that those who have the most 
influence over the child are empowered to assist him or her in avoiding 
gang involvement.
    As discussed in more detail below, these efforts must also address 
the needs of the UAC population, as they are some of the most 
vulnerable to MS-13 recruitment. As it currently stands, it is 
extremely difficult for local government to address their needs because 
of the lack of notification by the Federal Government to local 
officials, the sheer number of children being placed in Suffolk County 
and in other communities throughout the country, and the inadequate 
funding of any such efforts.
             how the federal government can further assist
Additional Resources
            Additional AUSAs and Proposed Pilot Program
    In order to effectively address this complex issue, we must 
continue to arrest and prosecute MS-13 gang members under the RICO 
statute to remove dangerous individuals from our streets and dismantle 
the gang's leadership. In order to do so, however, local law 
enforcement agencies need the support of the Federal Government to 
prosecute these cases. A practical impediment to this task is the 
number of Assistant United States Attorneys on staff on Long Island.
    The Long Island Criminal Division, which operates out of the United 
States Attorney's Office, Eastern District of New York branch office in 
Central Islip, is responsible for prosecuting all Federal crimes 
occurring in Nassau and Suffolk counties, including violent crimes, 
public corruption, terrorism, securities and corporate fraud, major 
narcotics trafficking, and child pornography crimes. Nassau and Suffolk 
counties are densely populated and the Long Island Criminal Division 
serves a population of approximately 2.85 million people, which is 35 
percent of the Eastern District of New York, and is larger than many 
entire districts around the country. Many of the cases prosecuted by 
the Long Island Criminal Division, including the MS-13 prosecutions, 
are international and inter-State in reach.
    Currently, the Long Island Criminal Division only has 11 line AUSAs 
and 4 supervisors, all of whom carry full caseloads in addition to 
their supervisory responsibilities, which is significantly below the 
normal staffing level. At the beginning of 2013, the Long Island 
Criminal Division had 18 AUSAs, including supervisors, but due to 
attrition, sequestration, and budget reductions, staffing dropped to 11 
AUSAs at one point. Several additional AUSAs were hired, but they have 
been insufficient to return the Long Island Criminal Division to the 
2013 staffing level.
    Indeed, Long Island (Nassau and Suffolk counties combined) has a 
population of about 2.85 million and 14 AUSAs. By comparison, Kansas 
has a population of 2.9 million and 24 Criminal AUSAs plus 6 Special 
Assistant United States Attorneys; Eastern District of Tennessee has a 
population of 2.6 million and over 30 AUSAs; and though Nassau and 
Suffolk counties comprise 35 percent of the Eastern District's 
population, there are approximately 105 Criminal AUSAs in Brooklyn and 
only 14 on Long Island.
    The limited number of prosecutors assigned to the Central Islip 
office forces these dedicated prosecutors to make decisions about how 
to most effectively allocate resources by deciding which cases should 
be, or should not be prosecuted Federally. In the event that more AUSAs 
are assigned to the Long Island Criminal Division, the Suffolk County 
Police Department, Federal agencies and the United States Attorney's 
Office could enter into a pilot program whereby all MS-13 arrests in 
the County are reviewed by an MS-13 intake AUSA to determine whether 
any Federal charges could be brought against the arrestee. This would 
increase the number of Federal prosecutions of MS-13 gang members, 
taking dangerous individuals off our streets, and likely generate 
significant intelligence due to the incentives in the Federal system 
for defendants to cooperate with law enforcement. Such a program called 
the Triggerlock Program was successfully launched in the Southern 
District of New York relating to firearm offenses.
    In short, the additional AUSAs will enhance the United States 
Attorney's Office's ability to prosecute violent crimes committed by 
members of MS-13, with the objective of continuing and increasing our 
efforts to dismantle and incapacitate MS-13 within the Eastern District 
of New York and beyond.
            Grant Opportunities to Combat Gang Activity
    As noted, a critical part of our strategy to deter and prevent gang 
activity is to enhance police presence and patrols in affected areas, 
also known as ``hot spot policing.'' The Suffolk County Police 
Department has recently applied through the Department of Justice for 
the Project Save Neighborhoods grant, which awards $500,000 to a 
jurisdiction to offset the cost of such policing efforts. Awarding this 
grant to Suffolk County is consistent with the Federal Government's 
commitment to eradicating MS-13 from our communities. I respectfully 
request that the Department of Justice award this grant to Suffolk 
County, and urge the Federal Government to create additional grant 
opportunities to assist local police in this important mission.
            Gang Prevention Programs
    It is imperative that we dedicate resources to school-based and 
community-based gang prevention programs in order to reduce successful 
gang recruitment. These efforts should focus on vulnerable populations, 
including UACs. Indeed, such funding should be directly tied to the 
UACs placed in our communities, as they are some of the most vulnerable 
to MS-13 recruitment.
Intelligence Sharing
    Information sharing among law enforcement agencies is a critical 
part of any effective strategy in order to ensure coordination of our 
efforts to remove dangerous gang members from our streets. To this end, 
it would be of significant assistance to our joint efforts to create a 
singular database with information relating to identified MS-13 gang 
members. The database could include the gang member's pedigree 
information, the clique he belongs to, his immigration status as 
confirmed by the Department of Homeland Security, whether he is a UAC, 
whether he is actively under investigation, which jurisdictions are 
involved in any such investigation, and any other intelligence that is 
sharable and relevant. The system could include automatic notifications 
to local agencies when information is added regarding an individual who 
is of interest to that agency. Such a database would encourage multi-
jurisdictional efforts and allow local police departments to be more 
proactive in targeting known MS-13 gang members in our communities.
    Since my law enforcement partners and I testified before the United 
State Senate Committee on Homeland Security and Governmental 
Operations, I have been recently informed that such efforts are 
currently under way. Those efforts include regionally and 
internationally based MS-13 fusion centers.
The UAC Program
    It is imperative to our mission that the Federal Government place 
UACs in our communities after proper screening of sponsors followed by 
measures ensuring sponsor compliance. Otherwise, we are creating an 
ideal recruiting opportunity for MS-13. Such reforms might include 
increased screening and compliance monitoring of sponsors, local 
notification of placement to school districts and local governments, 
and increased funding for post-placement services.
                               conclusion
    I want to thank the U.S. House of Representatives, Committee on 
Homeland Security, Subcommittee on Counterterrorism and Intelligence 
for its commitment to this very important issue, and the opportunity to 
appear before it today. I look forward to working with the committee 
and all its Members and staff.

    Mr. King. Thank you very much, Commissioner. Thank you for 
your efforts.
    Our next witness is Suffolk County Sheriff Vincent DeMarco. 
Sheriff DeMarco began his career as a Suffolk County Deputy 
Sheriff in 1994. He was elected in November 2005 to his current 
position, and he was reelected in 2009----
    Mr. DeMarco. And 2013.
    Mr. King [continuing]. And 2013. So that is 12 years as 
sheriff. He has done an outstanding job.
    I know you are not running for reelection this year, but I 
want to congratulate you on the outstanding job you have done. 
I wish you well.
    With that, you are recognized.

STATEMENT OF VINCENT F. DE MARCO, SHERIFF, SUFFOLK COUNTY, NEW 
                              YORK

    Mr. DeMarco. I want to thank Congressman King and 
Congresswoman Rice and all the committee Members for conducting 
this hearing on Long Island to bring attention to the threat 
that criminal street gangs pose to the safety and security of 
our communities and the Nation.
    I would also like to thank President Trump for making the 
eradication of gangs a priority of his administration.
    Since time is limited, I will focus my remarks specifically 
on what I think needs to be done now to prevent criminal gang 
networks like MS-13 from exploiting weaknesses in our 
Government programs. These are complex issues to tackle, but 
solutions that fail to address the multitude of ways that gangs 
have infiltrated society are destined to fail.
    We must take a system-wide approach if we are to be 
successful in eradicating criminal gang networks, just as the 
United States has taken the lead in the world in the fight 
against terrorism.
    Criminal gangs are very similar to terrorist organizations, 
and they capitalize on similar vulnerabilities in their 
recruitment of members: Poverty, poor socialization, lack of 
opportunities for gainful employment, and close ties to other 
gang members. Communities like Brentwood, New York are targets 
for gang recruitment because there is a high concentration of 
new immigrants, including many unaccompanied minors who tend to 
be more easily coerced into street gangs.
    The Sheriff's Office Gang Intelligence Unit at the Suffolk 
County Correctional Facility has interviewed hundreds of youth 
from Brentwood and its surrounding communities. These 
interviews provide significant insight into the underlying 
causes of gang proliferation, such as dangerous gaps in our 
Nation's border security, loopholes in our immigration system, 
lack of communication with local stakeholders and the ways 
these gangs have exploited government programs, like the 
Unaccompanied Refugee Minors Program run by the Office of 
Refugee Resettlement.
    One inmate, an MS-13 member, described his trek from 
Central America to the United States at age 9. His father, who 
is also affiliated with MS-13 in El Salvador, made the 
arrangements with el Cartel del Golfo, which is the Gulf 
Cartel, to transport him across the Texas border with Mexico. 
The cartel is well-known for trafficking drugs and weapons into 
the United States. With the help of the cartel, this adolescent 
bypassed Immigration authorities at the border and eventually 
made his way to Brentwood, New York with several other family 
members.
    Another young male, age 17, is another MS-13 member from 
Honduras. He was 15 years old when he left his native country 
and traveled to Mexico by train. He reports that it took him 
about 3 months to get to Mexico because he made stops along the 
way to beg for food and water. Once in Mexico, he and other 
adolescents were rounded up by the Mexican Mafia at gunpoint. 
They were told that they would have to transport marijuana for 
the Mafia or they would be killed. He was fitted with 48 pounds 
of marijuana and then two guides escorted them from Sonora, 
Mexico to Phoenix, Arizona. After crossing the border, he was 
taken into custody by United States Immigration officials and 
placed in a facility for unaccompanied minors. He stated that 
he remained there for 4 months and then flew to New York to 
stay with his uncle. Both were subsequently charged with 
violent felonies.
    I have included in my submission 10 notes from interviews 
like this just to give you a sense--these are their words--
about how they were brought to this country, and about how the 
unaccompanied minor program works in reality.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Gang members like these youths are being arrested and 
prosecuted in record numbers, but it is clear that law 
enforcement cannot solve this problem alone. According to a 
report released by the Department of Health and Human Services, 
ORR placed 930 unaccompanied minors in Suffolk County over a 6-
month period from October 2016 to April 2017. Since Federal 
authorities do not communicate with local human service 
agencies, law enforcement, nor do they notify school districts 
when youth are placed with sponsors in the county, there is no 
way to responsibly deal with the influx of minors coming into 
places like Brentwood. This must change.
    Unaccompanied minors are particularly vulnerable to gang 
involvement, especially those who may have witnessed violence 
at a young age and experienced significant trauma. Without 
appropriate interventions, some of these children are destined 
to engage with criminal gangs such as MS-13.
    Furthermore, Federal authorities must close loopholes in 
the ORR program which threaten National security and aid in the 
proliferation of criminal gangs in the United States. Anyone 
who sponsors a child to resettle in the United States should be 
held fully accountable for compliance with all immigration 
court hearings. It has been reported that sponsor families are 
not always thoroughly vetted and that youth are placed in the 
care of adults who do not meet legal residency requirements. 
Some youth are placed in families with siblings and relatives 
who are gang-involved, and they are concentrated in towns with 
high rates of gang activity. This accelerates the cycle of 
crime and incarceration in many lower-income communities and 
hurts law-abiding residents who are struggling in their own 
quest for security and personal prosperity.
    Our Nation's porous Southern Border has become the gateway 
for MS-13 to thrive on Long Island and in neighborhoods across 
America. This is also the economic epicenter for drug and sex 
traffickers, as well as a common route for weapons to enter our 
country illegally. Mexican cartels and organized criminal gangs 
have formed a powerful economic alliance to smuggle heroin and 
other illicit drugs into the United States. Ninety percent of 
the heroin that enters the country comes through Mexico, so we 
must intensify security along the Southern Border. These are 
real and serious problems that have been ignored for far too 
long.
    Finally, if we are truly serious about shutting down the 
MS-13 pipeline, we must improve human services and education in 
low-income communities. Federal lawmakers should strongly 
consider more funding for the Gang Resistance Education and 
Training Program, known an G.R.E.A.T., which the Sheriff's 
Office runs in schools throughout Suffolk County, including 
some in Brentwood and its surrounding communities. Young people 
also need more recreational and social outlets, as well as 
viable opportunities for employment, to help them better 
assimilate into mainstream society so that they can resist the 
lure of gang membership.
    I want to thank you again for the opportunity to speak here 
today, and I look forward to any questions.
    [The prepared statement of Mr. DeMarco follows:]
                    Statement of Vincent F. DeMarco
                             June 20, 2017
    My name is Vincent DeMarco and I am the sheriff of Suffolk County, 
New York, and the chairman of the County's Criminal Justice 
Coordinating Council. As Suffolk's chief law enforcement officer, I 
lead an organization with more than 1,300 uniformed and civilian 
employees responsible for protecting life and property, and I am 
responsible for oversight of the largest suburban correctional facility 
in New York State. It is my pleasure to be here today to provide 
testimony before the Committee on Homeland Security's Subcommittee on 
Counterterrorism and Intelligence.
    I want to thank the Committee Chairman, Congressman Michael McCaul, 
and the Ranking Member, Congressman Bennie Thompson, along with 
Congressman Peter King, for conducting this hearing on Long Island to 
bring attention to the threat that criminal street gangs pose to the 
safety and security of our communities and the Nation. I would also 
like to thank President Donald Trump for making the eradication of 
gangs a priority of his administration. He and members of his 
administration are proactively seeking ways to work with local law 
enforcement and addressing loopholes in immigration procedures that 
have long contributed to the crisis of gang violence in communities 
like Brentwood, Long Island.
    Since time is limited, I will focus my remarks specifically on what 
needs to be done right now to prevent criminal gang networks like the 
MS-13 from exploiting weaknesses in our governmental programs, which 
have allowed them to take hold in our neighborhoods, as well as what 
steps we need to take now, and in the future, to better immunize our 
children from the influences of gang recruitment. These are complex 
issues to tackle, but solutions that fail to address the multitude of 
ways that gangs have infiltrated society are destined to fail. We must 
take a systems-wide approach if we are to be successful in eradicating 
criminal gang networks. The United States has taken the lead in the 
world in the fight against terrorism, and I believe there must be a 
similar effort to protect our Nation and its people from the threats 
posed by criminal gangs and organized crime.
    Criminal gangs are very similar to terrorist organizations. They 
have a defined leadership structure, a belief system, cultural ties, 
and a code of behavior that forges a cohesive bond among their 
membership. Gangs also capitalize on similar vulnerabilities in their 
recruitment of members: Poverty, poor socialization, lack of 
opportunities for gainful employment and close ties to other gang 
members. Communities like Brentwood are targets for gang recruitment 
because there is a high concentration of new immigrants, including many 
unaccompanied minors who tend to be more easily coerced into street 
gangs. It is also a lower-income community with many hard-working 
families. The Sheriff's Office Gang Intelligence Unit at the Suffolk 
County Correctional Facility has interviewed hundreds of youth from 
Brentwood and its surrounding communities. These interviews provide 
significant insight into the underlying causes of gang proliferation, 
such as dangerous gaps in our Nation's border security, loopholes in 
our immigration system, lack of communication with local stakeholders 
and the ways these gangs have exploited Government programs, like the 
Unaccompanied Refugee Minors Program run by the Office of Refugee 
Resettlement (ORR).
    I thought I would read to you some of the notes taken by one of our 
Gang Unit investigators after interviewing young MS-13 gang members in 
custody at the Suffolk County jail. In the interest of time, additional 
notes have been submitted separately to the subcommittee.
    One young inmate described his trek from Central America to the 
United States at the age of 9. His father, who is affiliated with MS-
13, made arrangements with el Cartel del Golfo to transport him across 
the Texas border with Mexico. El Cartel Del Golfo is well-known for 
trafficking drugs and weapons into the United States. With the help of 
the cartel, this adolescent bypassed Immigration authorities at the 
border and eventually made his way to Brentwood, New York with several 
other family members.
    Another young male, age 17, from Honduras reports that he was 15 
years old when he left his native country and traveled to Mexico by 
train. He told our investigator that it took him about 3 months to get 
to Mexico because he made stops along the way to beg for food and 
water. Once in Mexico, he reports that he, along with 13 other 
adolescents, were rounded up by the Mexican Mafia by gun point. They 
were then told that they would have to transport marijuana for the 
Mafia, or they would be killed. He stated that he was fitted with 48 
pounds of marijuana and that two guides, hired by the Mafia, escorted 
them from Sonora, Mexico to Phoenix, Arizona. After crossing the 
border, he was taken into custody by United States Immigration 
officials and placed in a facility for unaccompanied minors. He stated 
that he remained there for 4 months and then flew to New York to stay 
with his uncle.
    Both adolescents have been charged with serious violent felonies.
    Gang members are being arrested and prosecuted in record numbers, 
but it is clear that law enforcement cannot solve this problem alone. 
According to a report released by the Department of Health and Human 
Services, ORR placed 930 unaccompanied minors in Suffolk County over a 
6-month period from October 2016-April 2017. Since Federal authorities 
do not communicate with local human service agencies, law enforcement, 
nor do they notify school districts when youth are placed with sponsors 
in the county, there is no way to responsibly deal with the influx of 
minors coming to places like Brentwood. This must change. Unaccompanied 
minors are particularly vulnerable to gang involvement, especially 
those who may have witnessed violence at a young age and experienced 
significant trauma. Without appropriate interventions, some of these 
children are destined to engage with criminal gangs such as MS-13.
    Furthermore, Federal authorities must close loopholes in the ORR 
program which threaten National security and aid in the proliferation 
of criminal gangs in the United States. Anyone who sponsors a child to 
resettle in the United States should be held fully accountable for 
compliance with all immigration court hearings. It has been reported 
that sponsor families are not always thoroughly vetted and that youth 
are placed in the care of adults who do not meet legal residency 
requirements. Some youth are placed in families with siblings and 
relatives who are gang-involved, and they are concentrated in towns 
with high rates of gang activity. This accelerates the cycle of crime 
and incarceration in many lower-income communities and hurts law-
abiding residents who are struggling in their own quest for security 
and personal prosperity.
    Our Nation's porous Southern Border has become the gateway for MS-
13 to thrive on Long Island and in neighborhoods across America. This 
is also the economic epicenter for drug and sex traffickers, as well as 
a common route for weapons to enter our country illegally. Mexican 
cartels and organized criminal gangs have formed a powerful economic 
alliance to smuggle heroin and other illicit drugs into the United 
States. Ninety percent of the heroin coming into the country enters 
through Mexico, so we must intensify security along the Southern 
Border. These are real and serious problems that have been ignored by 
prior administrations for far too long.
    Finally, if we are truly serious about shutting down the MS-13 
pipeline, we must do more to improve human services and funding for 
education in low-income communities. Federal lawmakers should strongly 
consider more funding for the Gang Resistance Education and Training 
Program (G.R.E.A.T.), which is run by the sheriff's office in schools 
throughout Suffolk County, including some in Brentwood and its 
surrounding communities. Young people also need more recreational and 
social outlets, as well as viable opportunities for employment, to help 
them better assimilate into mainstream society so that they can resist 
the lure of gang membership.
    I want to thank you once again for the opportunity to present 
testimony at today's hearing and I look forward to answering your 
follow-up questions.

    Mr. King. Thank you, Sheriff.
    Our next witnesses are from Nassau County, Commissioner 
Krumpter and Sergeant Mike Marino.
    Commissioner Krumpter has been Commissioner in Nassau 
County since February 2014. He is going to be retiring in the 
next several weeks.
    Tom, I thank you for your years of service and the 
outstanding job you have done.
    Sergeant Mike Marino and I have been friends for many 
years. We have serious fights about baseball, but other than 
that we agree on every other issue, and it is great to see Mike 
here. He does an outstanding job heading up the Gang Unit in 
Nassau County.
    So, Commissioner Krumpter, Sergeant Marino, you can divide 
up your time. Again, thank you for being here today.

 STATEMENT OF THOMAS C. KRUMPTER, ACTING COMMISSIONER, NASSAU 
       COUNTY POLICE DEPARTMENT, NASSAU COUNTY, NEW YORK

    Mr. Krumpter. I am going to be brief in my comments. 
Sergeant Marino will dive into the details of the current 
status of MS-13.
    Good morning, Chairman King, Ranking Member Rice. Thank you 
for conducting this hearing. This is clearly a significant 
issue with dire consequences.
    Long Island is frequently cited as being among the safest 
large suburban communities in America, but unfortunately we 
have gangs that are terrorizing communities within Nassau and 
Suffolk County. Unfortunately of late, Long Island has been the 
focus of National stories about violent atrocities committed by 
MS-13 rather than the safe communities that are really a 
benchmark.
    Of late, the most violent gang in Nassau County, and among 
the most violent gangs probably anywhere, is MS-13. MS-13 uses 
threats, intimidation, and violence in order to control and 
recruit members and carry out their criminal enterprise. 
Currently in Nassau County, we have identified 712 members of 
MS-13, of which 345 are currently active members.
    After 2 years of investigation by the Nassau County Police 
Department, Nassau County District Attorney, New York State 
Park Police, and Homeland Security, 41 members of MS-13 were 
indicted last week on conspiracy counts, with a number of 
underlying charges consisting of attempted murder. Of 
particular note in this investigation, and perhaps most 
troubling, is 19 of the 41 subjects indicted were unaccompanied 
minors. I think it is important to remember that not all 
unaccompanied minors are gang members, but we are seeing a 
significant number of gang members are unaccompanied minors.
    What is most important and the biggest challenge, and 
Congresswoman Rice touched on this, is the trust within the 
community. Because of the very way we police in Nassau County, 
this case in particular, without the support of the community 
as witnesses, we would not have been able to make the case. The 
community came out in force and basically made it very clear, 
they will not tolerate these terrorist acts by these MS-13 gang 
members. Nassau County Police will not tolerate violent street 
gangs. As has been stated multiple times by law enforcement 
over the last several months, we are at war with these violent 
street gangs.
    A few words about the Nassau County Police Department's 
strategy on dealing with gangs. We take a holistic approach. At 
the very core of that is the community outreach that we engage 
in each and every day. We look to build trust with the 
communities because we recognize that without the trust of the 
community, without partnering with the community, it will be 
all the more difficult to address these gangs.
    We use a multi-tier approach for gang enforcement. We use 
suppression by plainclothes units. The gang investigation squad 
headed by Sergeant Marino focuses on all gang investigations 
for all crimes and focuses specifically upon gang impact cases. 
We have a significant youth outreach program in Nassau County, 
among the largest police athletic league in the country, with 
over 40,000 participants. This is important, because it gives 
other outlets and other activities for the kids rather than 
becoming involved with the gangs. Like surrogate families, we 
try to give them alternatives. Additionally, we run police 
youth academies on a regular basis which targets at-risk youth, 
and the Police Explorer Program.
    As we move forward, I hope as a result of this hearing 
additional human resources will be dedicated specifically, as 
Commissioner Sini pointed out, additional prosecutors in the 
U.S. Attorney's Office in the Eastern District and Islip, as 
well as additional Federal agents. More people, more cases. 
That is the way it works.
    While the focus of today's hearing is on MS-13, it is 
important to realize that the focus must be on violent street 
gangs. What we have learned in Nassau County is that when you 
eradicate a street gang in a community, a vacuum is created and 
a new gang will emerge. So it would be near-sighted to focus 
solely on MS-13 as we move forward.
    As we move forward, there are a number of programs and laws 
that will greatly assist law enforcement. The most significant 
issue that law enforcement faces going forward is going dark. 
The most high-profile case in recent memory is the San 
Bernardino terrorist attack where Apple Computer outright 
refused a Federal court order to provide assistance in gaining 
access to a phone. This problem will become more and more 
problematic as we move forward, and it will make it more 
difficult to engage in those enterprise corruption 
investigations. MS-13 is an enterprise corruption case.
    We have dedicated significant resources in the war on 
street gangs, and we will continue to do so. Probably the most 
problematic is the case of unaccompanied minors. Unaccompanied 
minors are an issue not because of anything they have done. 
What happens is there is no due diligence done as a result of 
the unaccompanied minors coming into this country. If a program 
is going to succeed with unaccompanied minors, it is going to 
have to involve due diligence and programs so they are set up 
to succeed, not left so they end up turning to gangs as a 
surrogate family.
    Thank you.
    Sergeant Marino.
    Mr. King. Sergeant Marino.

     STATEMENT OF MICHAEL MARINO, COMMANDING OFFICER, GANG 
 INVESTIGATIONS SQUAD, NASSAU COUNTY POLICE DEPARTMENT, NASSAU 
                        COUNTY, NEW YORK

    Mr. Marino. Good morning, Chairman King and Ranking Member 
Rice. I am honored and grateful to represent the Nassau County 
Police Department in providing testimony on the activities of 
MS-13 within the County of Nassau and sitting among the top law 
enforcement officials in the Nation.
    While Nassau County is one of the safest places in the 
country and we are experiencing record low crime rates, we are 
not spared the violence of MS-13. There have been 12 MS-13 
investigations so far this year, which is the lowest since our 
inception of the unit in 2005. The National media attention to 
the gruesome nature of their crimes has magnified the 
perception of their activities amongst the public. We cannot 
ignore the rival gangs in the county such as 18th Street, Vatos 
Locos, Salvadorans with Pride, Latin Pride, and the Bloods. 
When one gang is diminished, the others fill the void.
    MS-13 assaults outnumber all other MS crime combined. MS-13 
crimes in the county are predominantly gang versus gang, or 
gang within gang. Innocent victims can occur due to 
misidentification as adversaries due to style of dress, 
associations or social media posts, or disrespect. These events 
are often retaliatory from incidents that may have happened a 
day ago, a month ago, or several years ago. GIS utilizes many 
strategies, initiatives, and law enforcement techniques to 
solve gang incidents.
    The men and women that make up the GIS are senior expert 
gang detectors. They have long relationships to the communities 
and go to great lengths to protect witnesses and victims. We 
investigate gang-motivated crime and gang membership-based 
crime in order to increase the accuracy of our statistics and 
lessen missed investigative opportunities. Our School 
Administrators Gang Awareness program, SAGA, partners the 
schools with the police department to foster information 
sharing and provide training. This relationship has resulted in 
many non-criminal interventions of gang members or potential 
gang members, as the first signs of gang affiliation often 
occur in schools. When you look at the education levels of gang 
members, it is staggeringly low.
    We encourage the schools to out-recruit the gangs in what 
we deem gang replacement therapy, joining the track team, 
marching band, or any other after-school activity.
    On the enforcement side, we focus on our Top Shooter 
initiative. We believe there are smaller subsets of those gang 
members that are willing to actually fire a gun at another and 
kill another human being. When we arrest the shooter, we also 
remove a target from the rival gang so it gives us a multiplier 
effect on reducing shooting incidents. We expand that concept 
to machetes for MS-13 as well.
    We also--it is important that we assess retaliatory actions 
when these attacks occur. Our recent Operation 503, named for 
the country calling code of El Salvador, was a joint 
investigation by the Bureau of the Nassau County District 
Attorney's Office, the Hempstead PD's new gang unit, New York 
State Park Police, and HSI, resulting in the conspiracy 
indictment of 41 MS-13 gang members, 19 of which were UACs and 
one U.S. citizen.
    Social media now is being used by gangs to recruit, 
threaten, and intimidate. Law enforcement can use this material 
as powerful evidence. Back in 2013, when Representative Rice 
was district attorney, we were attempting to obtain a Title III 
wiretap with the FBI but could not reach our legal threshold 
until we discovered two YouTube videos, Puppies on Deck and In 
the Trap, which you probably still remember the lyrics to. That 
operation, Seize Down, started then and eradicated the Rollin 
60's Crips from Roosevelt, and is now being prosecuted by the 
Eastern District U.S. Attorney, which can serve as a model for 
MS also.
    Coincidentally, last Thursday the GIS conducted Operation 
503 and simultaneously the Eastern District convicted and 
sentenced a high-ranking Rollin 60's Crip from Operation Seize 
Down to over 100 years in prison. I think almost all our law 
enforcement partners, both Federal and local, were involved 
between those two cases. That was a very bad day for gangs and 
a very good day for law enforcement and the residents of Nassau 
County.
    I want to thank Commissioner Krumpter, Deputy Commissioner 
Ryder for allowing me to represent the Nassau County Police 
Department, and I want to thank the men and women of the Gang 
Enforcement Squad in Nassau County for their hard and dangerous 
work every day. I thank the committee Members and Congresswoman 
Rice and Congressman King for inviting me to appear today. 
Thank you.
    [The statement of Mr. Marino follows:]
                  Prepared Statement of Michael Marino
                             June 20, 2017
                                summary
    I am Detective Sergeant Michael Marino, commanding officer of the 
Gang Investigations Squad (GIS), Nassau County Police Department. I am 
honored and grateful to represent the Nassau County Police Department 
in providing testimony regarding the activities of the ``transnational 
criminal organization'' known as Mara Salvatrucha 13 (MS-13), as 
designated by the United States Government within the county. In 
addition, I will explain the duties, functions, and strategies of GIS 
to investigate and combat gang crime in general and in particular MS-
13.
    Although Nassau County is one of the safest places in the country 
and we are experiencing record low crime rates, we are not spared the 
violence of MS-13. There have been 12 MS-13 investigations for the 
first half of 2017, which is the lowest number since the formation of 
GIS in 2005. The National and local media attention, in addition to the 
gruesome nature of some crimes perpetrated by MS-13, has magnified the 
perception of their activities. A brief explanation of our experience 
with the Unaccompanied Alien Children (UAC) population, as it relates 
to their gang participation and recruitment, is necessary. We cannot 
ignore the historically rival gangs of MS-13 that exist within the 
county such as 18th Street, Vatos Locos (VL), Salvadorians with Pride 
(SWP), Latin Pride (LP), and the Bloods. A balanced and consistent 
approach is necessary as one gang tends to fill the void left by the 
diminished gang.
    I will provide the committee with the framework of ``Operation 
503'' and as much information as possible, since some components of the 
investigation are continuing.
    Last, tutorials on the use of social media by MS-13 to intimidate, 
recruit, and threaten individuals or groups would be valuable.
    Although, many of my law enforcement colleagues have correctly 
detailed the facets of MS-13, a distinct perspective of the detectives 
in the Gang Investigations Squad should give the committee a more 
comprehensive view of the issue.
                         ms-13 in nassau county
    Currently we have identified 345 MS-13 gang members active within 
the last 5 years and 367 inactive MS-13 gang members who are 
predominantly male extending in age from 15 to 30. A small percentage 
of females and those outside that age range do exist. The majority of 
MS-13 gang members residing in Nassau County originate from Central 
American countries, are not United States citizens, and do not speak 
fluent English.
    This is unlike their rival gang SWP who are frequently born in the 
United States and speak English. We believe SWP started in Hempstead as 
a defense to MS-13 violence and has not been identified outside Nassau 
County borders for many years. Historically, MS-13 has been 
concentrated in the communities of Westbury, Hempstead, Uniondale, 
Roosevelt, Glen Cove, and Freeport with lesser amounts distributed 
throughout the county. We have encountered MS-13 gang members that have 
several different types of immigration status.
    Generally, MS-13 gang members are employed earning wages and do not 
engage in crimes designed for profit as dealing drugs or credit card 
fraud. This is a significant difference from other street gangs in 
Nassau County and necessitates a more nuanced approach during 
investigations.
                      criminal activities of ms-13
    Exceedingly, crimes committed by MS-13 within Nassau County are 
gang versus rival gang or gang within gang. Innocent persons can become 
victims because MS-13 gang members misidentify individuals as 
adversaries due to style of dress, associates, or social media posts. 
Assaults outnumber all other crimes together. Over the years we also 
have crime reports involving MS-13 in murder, attempted murder, 
robberies, burglaries, menacing, drug possession, witness tampering, 
criminal possession of weapon, reckless endangerment, criminal 
mischief, making graffiti, and a variety of other lesser crimes.
    MS-13 gang members have utilized knives, chains, machetes, and 
firearms as weapons during many of their assaults. It is not unusual 
for there to be multiple attackers during these aggressions. Often, 
these events are retaliatory in nature from other incidents that 
occurred a day ago, a month ago, or years ago.
    On April 30, 2017, three members of MS-13 embarked on a machete 
attack against persons they perceived to be rival gang members in 
Westbury. The victim sustained severe and serious lacerations. 
Additionally, one member fired a hand gun five times at victims, and 
fortunately no one was struck by the bullets. The GIS detectives 
arrested the perpetrators and recovered the firearm within 3 days. All 
originally from El Salvador, two of the gang members were undocumented 
and one has UAC status. This case is currently being prosecuted by the 
Nassau County District Attorney's Office. Although currently rare in 
Nassau County, this is a good example of the typical MS-13 gang 
assaults throughout Long Island.
UAC Program
    Our experience with UAC's placed within Nassau County is largely 
anecdotal. Only recently have we begun to track and understand all of 
the immigration statuses relating to MS-13. We believe that certainly 
pluralities of UAC's are law-abiding from information obtained during 
our investigations. At this time, it is difficult to determine the 
percentage of UAC's who were already gang members when they entered the 
country as the laws in El Salvador prohibit the exposure of criminal or 
gang records of minors.
    It is clear that MS-13 and the rival gangs target these children 
for recruitment. They become a high-risk group because they are young, 
alone in a new country, have a language barrier, and an unconventional 
family structure. We have investigated cases where our UAC victims who 
were not gang members did, over periods of time, succumb to the 
pressure and become gang members. It is a strong recruitment tool to 
pitch protection for these victims by MS-13 and their rivals. Our most 
recent MS-13 investigation Operation 503 revealed 17 of 41 indicted 
gang members were UAC's. Nassau County Police Department's (NCPD) 
continued cooperation with our Federal partners should shed some 
further light on this issue.
                        gang investigation squad
    In 2005, the Nassau County Police Department created the GIS to 
implement its gang reduction strategies. Currently under the Major Case 
Bureau, GIS is a robust unit of senior detectives and sergeants 
responsible for investigating and coordinating all information and 
intelligence involving street gang activity within Nassau County. 
Duties include the gathering and dissemination of street-gang 
intelligence; the debriefings of gang members and associates; 
coordination of investigations of gang-related incidents with precinct 
detective squads, special squads, and other law enforcement agencies; 
and conducting investigations of selected gang-related incidents.
    GIS is supported by many other units within the police department 
including the Intelligence Division, Detective Division, and Patrol 
Division. The Intel Center has civilian gang analysts which are 
critical to our intelligence-gathering efforts especially in the social 
media arena. We have partnered for many years with several Federal 
agencies including the FBI Long Island Safe Streets Task Force, 
Department of Homeland Security, and the United States Attorney's 
Office for the Eastern District of New York. On the local level, we 
coordinate with the village and city police departments especially 
Hempstead, Freeport, Glen Cove, and Long Beach. GIS works closely with 
the Special Operations Narcotics and Gang Bureau of the Nassau County 
District Attorney's Office. The New York State Police and New York 
State Parks Police have had joint investigations involving GIS.
    Since our inception, GIS has collaborated with our school districts 
as host of the School Administrators Gang Awareness (SAGA) program. 
SAGA consists of 1 or 2 yearly meetings with participating school 
districts where we share information and provide gang awareness 
training. Our relationship with school districts has resulted in 
several successful joint non-criminal interventions of gang members or 
potential gang members. This association is important as we realize the 
earliest signs of gang affinity may manifest in school.
    Recruitment on or near school grounds is common. GIS assisted one 
school district where the close proximity of the high school, middle 
school, library, and park were contributing to increased recruitment. 
We helped by assisting with an environmental design that included the 
use of fencing, lighting, cameras, and security personnel to create a 
safer route home for the students.
    The NCPD prioritizes intelligence sharing and to meet those goals 
as it relates to gangs, GIS did develop the Daily Gang Intel Report 
that is electronically distributed to all relevant law enforcement 
personnel. Working closely with information from our Intel Division, 
GIS detectives everyday assemble any NCPD police gang contact for the 
previous 24 hours from a simple field stop through the most serious 
crime reports and arrests.
    GIS utilizes many strategies, initiatives, and law enforcement 
techniques to investigate gang-related crimes. As gang-related is often 
under-reported, is it important to include gang-motivated-based crime 
and gang-membership-based crime. Many times, the motivation is unknown 
immediately and may remain undetermined. If either the victim, subject, 
or both are gang members, it should be categorized as a gang crime thus 
improving accuracy of statistics and lessen missed investigative 
opportunities.
    Many of the detectives assigned to GIS have been involved in gang 
investigations for at least a dozen years. This stability garners 
support from the community as strong relationships build from 
interviewing victims and witnesses. These detectives go to great 
lengths to protect victims and witnesses which fosters trust within the 
community.
    GIS believes that a small subset of violent gang members are 
willing to use firearms. We target this group with our Top Shooter 
Initiative. Concentrating on removing a shooter from the gang also 
eliminates a target for the rival gang. GIS has seen a multiplier 
effect reduction in the amount of shootings in a neighborhood when we 
arrest a shooter. This focus also increases the likelihood that we can 
recover the illegal weapon. We include dangerous weapons such as 
machetes in this category for MS-13.
    GIS is mandated by the NCPD to assess retaliation by MS-13 and 
gangs in general when an incident occurs. As most assaults are the 
result of retaliatory violence, we must expeditiously attempt to arrest 
the offenders and determine the necessary support resources to deploy 
such as special patrols or plainclothes crime units.
    As of this date, GIS has investigated 12 MS-13 gang cases for this 
year. During 2016 and 2015 we investigated 31 and 32 cases 
respectively. This reduction was possible due to the support of the 
entire NCPD and the joint efforts of our local and Federal partners.
                             operation 503
    ``Operation 503'' was a joint investigation by NCPD, Nassau County 
District Attorney's Office, Hempstead PD, New York State Parks Police, 
and the Department of Homeland Security. ``503'' is the country code 
for calling El Salvador by phone. The investigation looked at numerous 
violent cases going back to 2013 involving MS-13. After a month-long 
presentation to the Grand Jury, a Conspiracy indictment was returned 
against 41 MS-13 gang members for an attempt to commit the crime of 
murder in the second degree, assault in the first degree, an attempt to 
commit the crime of assault in the first degree, and assault in the 
second degree.
                      use of social media by gangs
    Most people are aware of the use of social media by terrorist 
groups or internet predators, however, gangs use similar tactics. There 
are hundreds of thousands of gang-related photos and videos circulating 
on the web. A simple search of the major social media services such as 
Facebook, YouTube, Twitter, Google, Instagram, and a host of others, 
would reveal the magnitude of gang-related material. GIS has reviewed 
thousands of these postings as MS-13 and other gangs promote propaganda 
and glorification of gang lifestyle as a recruitment tool. The gangs 
also use these platforms to intimidate and threaten their rivals which 
can lead to violent retaliation.
    Law enforcement can use these photos and videos as powerful 
evidence. GIS was attempting to obtain a Title III wiretap but could 
never quite reach the lawful threshold until we discovered two YouTube 
videos depicting the Rollin 60's Crip gang with firearms and drugs. 
That case dubbed ``Operation Cs Down'' started as a local investigation 
and is now being prosecuted by the U.S. Attorney's Office of the 
Eastern District.
    We advise parents to monitor their children's computer to look for 
signs of gang involvement and protect them from recruitment. It is also 
prudent not to ``like'' a gang-related posting or post anything on a 
page depicting any gang activities.
                               conclusion
    The Nassau County Police Department thanks the U.S. House of 
Representatives Committee on Homeland Security for their attention to 
this critical issue, and the opportunity to appear before it today. The 
NCPD will continue to work with the committee Members and its staff.

    Mr. King. Thank you, Sergeant Marino. I know you have at 
least one member back there from your gang unit.
    Commissioner Sini and Commissioner Krumpter, I know that, 
for instance, the 12 individuals who were indicted and charged 
back in March for the killings, conspiracies, narcotics 
trafficking, and 19 of the 41 who were arrested last week were 
unaccompanied minors. I also know that in the last year alone, 
there were 2,700 unaccompanied minors placed into Long Island. 
I think in Suffolk County in the last 3 years it has been 
almost 5,000.
    Commissioner Sini, you and I have discussed and you said 
publicly to the extent MS-13 has been able to game the 
unaccompanied minors system in that often they are placed with 
families who can be supportive of MS-13, or maybe threaten to 
support MS-13, and those kids, in effect, are placed--and 
again, this is a small minority of the overall, so I am not 
trying to have a broad-brush attack on the unaccompanied 
minors.
    The fact is it seems to be a lack of vetting in the program 
as to what family is sponsoring them, which children are going 
to those families, and what is the subsequent monitoring of 
those unaccompanied minors within those families and within the 
school districts.
    So I would like to basically ask Mr. Sini and Mr. Krumpter, 
and again FBI agents, if you want to comment on that, as to 
what the situation is and what can be done to improve the 
vetting so we will not have that situation where such a large 
percentage of those who have been arrested are actually 
unaccompanied minors, which means that young people who have 
only come here within the last two or 3 years.
    Mr. Sini. So in Suffolk County, since 2014, approximately 
between 4,500 and 5,000 UACs have been placed in Suffolk 
County. The vast majority of those UACs have been placed in 
Brentwood and Central Islip, but certainly numerous communities 
have received UACs.
    Congressman, as you mentioned, of that amount, a very, very 
small fraction have become involved with MS-13, to our 
knowledge. Nonetheless, it remains certainly a recruitment tool 
that MS-13 has used, and it is for obvious reasons. These 
children are young, they are unaccompanied, they are not here 
with their parents, they are new to the country, they are 
seeking a sense of cultural unity, they are scared, they are 
experiencing trauma both in terms of what they experience in 
their home country and their journey here to the United States 
and their placement, the process of being placed in a 
community, and that makes them prime time for gang recruitment.
    So intelligence has indicated everything that you have 
mentioned, that there has not been proper screening of sponsors 
in certain instances, there certainly has been a lack of 
sponsor compliance post-placement, there is no notification, 
and I think Sheriff DeMarco mentioned this, there is no local 
notification, whether it is to a human services organization 
like the Department of Social Services, to the police 
department, to the school districts. There is no local 
notification of placement, and there is very little funding 
connected to the program. I have only been able to identify one 
service provider in Suffolk County that is receiving moneys 
directly connected to UACs through the Office of Refugee 
Resettlement, and that is Catholic Charities. Certainly, these 
children are being serviced in other capacities, but connected 
specifically to the program, I have only identified that one 
program.
    So, what law enforcement is asking for is simply Congress 
to take a look at the program to make sure that it is being 
implemented in a responsible way. We understand that this is a 
humanitarian program and that these children need to be placed. 
This all grew from a settlement agreement back in the `80's or 
`90's. Then the whole program was codified in Title 8, and we 
have a legal and moral obligation to place these children in 
our communities, but we need to do so responsibly. We need to 
make sure that the children are vetted. We need to make sure 
that the sponsors are vetted. We have to make sure that there 
is sponsor compliance post-placement, essentially making sure 
the sponsors are doing the right thing by these children. And 
we need to make sure that there is funding connected to 
placement of children in our communities.
    It is not fair to Suffolk County to take in 4,500 UACs, 
some of the most vulnerable individuals, very vulnerable 
individuals, without any Federal funding. So the message from 
law enforcement, I think, is if we do not provide that support 
to these children, MS-13 will, or another gang will, and we 
need to make sure that this program is implemented in a 
responsible way.
    Mr. King. Since Congresswoman Rice and I are the only two 
here today, I will just allow each of you to answer this 
question to the extent you want, and then Ms. Rice will have 
her questions. Do not worry about the time as far as answering 
this question.
    I would just respond on that also that I know Congressman 
Israel and I, after I visited the Central Islip School District 
several years ago, realized that these children come into these 
schools and there is no money following them. Steve Israel and 
I introduced legislation to have the Federal Government have 
money follow the unaccompanied minors. It went nowhere. This is 
looked upon as a regional issue, and the rest of the country, 
quite frankly, was not interested. The administration was not. 
I do not think this administration will be, to be honest with 
you. So we have to work on it, we really do.
    Mr. Sini. Congressman, I am familiar with the bill, HR-
2634, and I thank you and the Congressman for introducing that 
bill. What the country needs to realize is that this is a 
problem that is going to affect their community at one point.
    Mr. King. Hopefully a hearing like this will have that type 
of impact.
    Commissioner Krumpter.
    Mr. Krumpter. Yes, I believe it is at the very core of 
this. I think you can draw parallels to the foster program. 
When the foster program--when a child is taken into custody by 
the State, they do due diligence. Not only do they do due 
diligence on the home, but then they follow up with regular 
visits. As far as I understand, these unaccompanied minors are 
only being vetted on where they are coming from and why they 
ended up here, not looking at where they are going, not looking 
at the risk factors.
    Commissioner Sini pointed it out: If you do not provide 
them the services they need for them to succeed, the gangs are 
going to become the surrogate families for these kids. That is, 
in essence, what we are seeing. There is only a small fraction 
of these kids that are ending up in gangs. They are a large 
percentage of gang arrests at this point, based on the 
population total.
    But I think it is really a humanitarian program, and I 
think that is what we have to focus on. It has to be focused on 
resources. Resources cannot be very shallow in the amount of 
resources being provided. I think we really have to ensure that 
those kids are being taken care of and tracked after the fact. 
You are dropping them in homes, you are dropping them in 
communities that are unfamiliar. They can assimilate into 
mainstream society, or they can assimilate into an MS-13 or 
another gang.
    Mr. King. Mike, do you have anything?
    Mr. Marino. Yes, Congressman. We found from our 
investigations dealing with the UACs that the difficulty 
resides at the border when they come across. The constitution 
of El Salvador does not allow for the criminal record or 
exposure of gang activity of these particular persons. So the 
only way to be screened at the border is to look for particular 
tattoos or maybe an interview type of thing.
    But what happens when they get to the school districts and 
get put in a very bad position, a couple of hundred could show 
up in any month of the year, and they have to go into an ESL 
school with all these people in one class, where normally the 
high school would rotate classes amongst the different 
teachers. Mostly you have an ESL teacher with the same students 
in the same class most of the day. So if there is an 
infiltration of a particular gang member, they have the whole 
day to pressure these students, and we have found that they 
originally are victims. They are not in the gang. They are 
victims of crime from MS-13 or other gangs, and then over time 
these gang members have a very easy sell. They pitch protection 
and defense, and they succumb to the pressure over time.
    Mr. King. Sheriff DeMarco.
    Mr. DeMarco. I want to echo what Commissioner Krumpter said 
about the foster care program. My staff and I were discussing 
this the other day about the need--if you are going to have a 
program, a humanitarian program, which is a compassionate 
program like this, you need case workers. These kids have to be 
assigned case workers, or else the program is not going to 
succeed.
    Mr. King. Mr. Melendez.
    Mr. Melendez. Yes, I would like to add, as part of my 
testimony I indicated that 5,000 unaccompanied alien children 
from the Northern Triangle countries, which are specifically 
those countries that are strong in MS-13 presence, have been 
resettled on Long Island from 2014 to April 2017.
    What I want to reiterate, like all of our panel members 
have indicated, not all of these unaccompanied alien children 
will eventually become gang members. But the fact of the matter 
is that as of today, of those individuals, MS-13 members that 
we have arrested, 30 percent of them--and it is a continual 
number that we see--are unaccompanied alien children. They 
arrive into the United States in the Unaccompanied Alien 
Children Program.
    So we talk about what is going on in the resettlement 
process or how they are located in the communities throughout 
the United States. One of the other things that is very 
disturbing is the fact that although these unaccompanied alien 
children may be resettled in a certain location, and as an 
example may be resettled on Long Island, not necessarily are 
they on Long Island. So we have seen in some of these arrests 
where individuals were not resettled on Long Island but were on 
Long Island, and they came in through the Unaccompanied Alien 
Children Program.
    The other thing that is very important is the fact that 
even if they self-admit at the border as MS-13 members, we 
still have to transfer them to the custody of HHS within 72 
hours, and this is something I submit to both of you that the 
Immigration and Naturalization Act, the INA, does not specify 
gang affiliation as a grounds for removal, that is as a grounds 
for inadmissibility or to later remove from the United States.
    So the fact that they are verified gang members, that alone 
is not sufficient for us to remove them from the United States. 
What is even more disturbing, they can come in and self-admit 
and say, yes, I am an MS-13 member from El Salvador, and I am 
coming into the United States, and we cannot turn them around.
    So I submit that for your consideration, that the INA 
should actually include as a grounds for removal gang 
affiliation. It would make our work a lot more efficient in 
managing the flow of these unaccompanied alien children through 
our borders.
    Mr. King. Mr. Sweeney.
    Mr. Sweeney. Sir, I actually was not too familiar with this 
program, or familiar at all, before I arrived here. I was not 
familiar with this program prior to assuming this position. I 
agree with everything I have heard from everybody up here. To 
me, it is stunning that there is no notification to local 
authorities that you have a wave of incoming youth and you have 
no support network. It is, to my mind, a recipe for disaster. 
If that part alone can get fixed first, I think that would give 
a huge advantage, especially to the school districts, who could 
at least try to plan in advance for what is coming their way. 
But I would agree with everything I have heard up here.
    Mr. King. Thank you.
    Ms. Rice, take as much time as you want.
    Ms. Rice. Thank you, Mr. Chairman.
    I think that you are not going to get any disagreement from 
my colleague, Chairman King, and I that this situation is, to 
me, Exhibit A of the incredible failure of the Federal 
Government to do their part to help local communities where 
these children are coming, and I thank Commissioner Sini for 
being the first one to say the obvious, which is we have these 
kids here because a lot of them are fleeing similar violent 
situations where they came from, and they are thinking life is 
going to be better for them here, and the system fails them the 
second they touch American soil.
    Sergeant Marino, I know that today the focus is MS-13, but 
can you just talk a little bit more about some of the other 
gangs that you mentioned and what level, if any, of cooperation 
is there between MS-13 and the other gangs that you 
investigate, or are they all rivals? Maybe just go into that a 
little bit.
    Mr. Marino. Yes. MS-13 is almost always rivals with 
everyone. There are some times when the Serenos 13 have been 
associated with them, but that is rare in Nassau County, but it 
does occur. 18th Street is their No. 1 rival both in Nassau 
County and across the country. We recovered a firearm used in a 
homicide that we thought would come back to the homicide in 
Nassau County, but it came back to a homicide in Houston, 
Texas, and the Houston P.D. was up here meeting with us, and 
when we laid out our photographs of our 18th Street gang 
members, there were about 12 that matched up to their photos of 
the ones they have. Houston P.D. told us that they focused on 
MS for so many years they lost track of 18th Street, and now 
18th Street is rising in Houston.
    So we have to be aware of 18th Street. They are the No. 1 
rival. We have a gang called Salvadorans With Pride, which 
started solely in Hempstead to defend themselves against. They 
are all American-born U.S. citizens, speak fluent English, and 
we did a similar program with the conspiracy. The first test 
case for the conspiracy with the District Attorney's Office was 
back in December on the SWP gang. So we took out one of the 
main rivals, and that gang I do not think to this day has been 
really identified outside of the Nassau County area.
    Besides that you have the Latin Pride, the LP's, the 
Novatos Locos, all that reside within, and the Bloods are 
historic enemies of MS-13. Basically, the MS-13 fights with 
every single gang, almost. 18th Street and SWP does show an 
alliance at times, and they switch back and forth between those 
particular gangs, and there are some members that have been in 
both or switched out of those particular gangs.
    Ms. Rice. So is it MS-13 that is primarily populated by 
illegal--people who are here in an undocumented status, or the 
other gangs that you mentioned----
    Mr. Marino. Well, MS--just as an example, on the 41 
indictment conspiracy, 19 were UACs. The rest were 
undocumented, and one was a U.S. citizen, a Dominican who came 
here when he was a child. Most of the MS is here in some sort 
of undocumented status. Some of the other gangs can be a 
mixture of that. 18th Street is also many times here with 
undocumented status.
    Ms. Rice. Let me ask you, how many school districts in 
Nassau participate in the SAGA program? I put that question to 
you, Sergeant Marino, and to you, Commissioner Sini.
    Mr. Marino. Well, generally, the ones that have had the 
majority of the gang issues always participate. We get some 
that do not have that, participate, some that do not want to 
participate. They feel it is a negative aspect. But many of 
them participate in the SAGA, especially in the school zones 
where these particular gangs exist.
    Ms. Rice. So, let me just stop you there. So there are some 
schools that do not want to participate because they are afraid 
it is going to make their school look bad?
    Mr. Marino. I do not think they think it will make their 
school look bad. They might get the perception that they have a 
gang problem there.
    Ms. Rice. What if they do?
    Mr. Marino. It is a difficult position for us.
    Ms. Rice. So we need to get the school system, obviously, 
buying into this----
    Mr. Marino. For the most part, they are.
    Ms. Rice. I mean, if they think that people do not know 
there is a gang problem in their local school, then they have 
their head in the sand. Thank you.
    Commissioner.
    Mr. Sini. Sure. Prevention and intervention is one of the 
main focuses of the Suffolk County Police Department, as it is 
with the Sheriff's Office. In Suffolk County, we have several 
different gang prevention programs that work with our schools. 
We have the CHANGE Program, which is in North Bellport, 
Wyandanch, and is being introduced right now in Brentwood. That 
is an early intervention program. The organization is a not-
for-profit called STRONG, which is a gang prevention program 
that you are probably familiar with. It started in Nassau 
County.
    They identify children who are at risk and case manage 
those children. There is a big focus on family involvement, 
because obviously schools only have the children for a certain 
period of time. They are going home. We have to make sure that 
we are empowering the families to do right by these children.
    We also have our school resource officers in each one of 
our districts. They push in gang prevention programs into the 
classroom. They also--and there has been a major focus on this 
of late. They identify at-risk children and we conduct what are 
called youth conflict insertions or basically interventions 
where we identify at-risk children and try to essentially case 
manage them, connect them to resources they may need and try to 
get them on the right path.
    Communications with the schools is critical. Oftentimes we 
have information about their students that they do not know, 
and oftentimes they have information about students that we 
should be focused on that we do not know. It is a touchy 
subject. Working with schools is sensitive. There are privacy 
issues and there are other issues at play, but we understand 
that collaboration with the schools is critical.
    Ms. Rice. I could not agree with you more. Commissioner, I 
have spent some time, obviously--we have immigrant communities 
in my district, and what I hear very often is desperation on 
the part of people living in immigrant communities, some 
documented, some not. They talk about how young girls are being 
kidnapped by gang members and they are afraid to come forward 
because they are afraid they are going to kind of be brought 
into the system and sent to a place that they do not call home 
anymore.
    You know, young boys are joining the gangs, as we have all 
been talking about, because of whether it is a cultural 
affiliation or a sense of community, a sense of belonging.
    How does your police department--and, by the way, I have to 
say you deserve credit for taking over an agency that was in 
serious turmoil, and from all accounts--I think Chairman King 
would agree--you are doing what needs to be done there, and I 
would like to go into how you are actually improving the morale 
in the police department, but also training, because there are 
some reputational issues about how the police department in 
Suffolk treats immigrant communities, understanding that they 
have a job to do, but what programs you have put in place to 
allow for a more comprehensive approach to these issues.
    So how do you address--what do the police do when a young 
girl who is in an undocumented status comes and says that this 
is what just happened to me?
    Mr. Sini. Right. So, our policies are very clear on this. 
Our officers are prohibited from inquiring into the immigration 
status of those individuals who contact the police department 
as witnesses or victims or someone really seeking police 
assistance.
    Ms. Rice. Now, is that a new policy under your 
administration?
    Mr. Sini. No, that policy existed prior to me becoming 
police commissioner. The policy also talks about why that is 
the case. We want to create an environment that encourages 
people to come forward.
    By the way, I just spent a week down at the FBI. There is 
literally--I have not found a police commissioner or a police 
chief who disagrees with that policy. This is not a real 
debate. Law enforcement officials recognize that we need to 
create an environment in which people feel comfortable coming 
forward.
    Simultaneously, we collaborate closely with the Department 
of Homeland Security when we arrest individuals who are not 
here legally. We notify the Department of Homeland Security of 
that arrest. It is important that we have the right policies, 
which we do. There is no question about that.
    But the more difficult part, which I think is what you are 
touching upon, is messaging and communicating those policies to 
the people who need to hear them. We do a tremendous amount of 
work attempting to do that. We do direct community outreach to 
folks. We do it through churches, we do it through community 
organizations, we do it through schools, we do it through a 
host of different media, and we also use community ambassadors 
and try to break those barriers, develop relationships with 
folks in the community who are respected, particularly those 
people who are respected by the undocumented community, and we 
have them convey our policies to their constituents because 
they are much more likely to believe it when it is coming from 
such a trusted community ambassador than law enforcement.
    I say that--it is not a criticism of law enforcement. We 
have to understand the reality here. Many of these individuals 
are recently immigrating from countries where law enforcement 
is extremely corrupt and there is virtually no trust between 
law enforcement and the citizens. So oftentimes we are pushing 
back on a cultural mistrust that is extremely difficult. So we 
utilize community ambassadors to help us do that.
    Ms. Rice. In your opinion, set up a structure that you 
think will work in terms of making the whole placement program 
for UACs better.
    Mr. Sini. Right. So I think funding and notification and 
sponsor compliance are the key ingredients to making this 
program more responsible. So I agree with--I believe it was 
Sheriff DeMarco who initially stated that all these children 
need to be case managed. So right now the Office of Refugee 
Resettlement places these children in our communities and they 
do a post-placement check-up and endeavor to close out the case 
file within 30 days. Oftentimes that post-placement check is 
via the phone. That is woefully inadequate.
    To the extent that they are funding post-placement 
services, the only contract that I have identified--and there 
could be others that I do not know about, but the only contract 
that I have identified is with Catholic Charities, and it is 
only good for 3 months post-placement, woefully inadequate.
    So what I would like to see is notification to appropriate 
authorities within the local municipality, the county 
government, the local police department, school districts, and 
a case management system set up that is funded appropriately 
that involves an array of services, from psychological services 
to social work services to legal services. That way we provide 
a system of support for these children who oftentimes are very 
vulnerable to gang recruitment.
    Ms. Rice. This is to whomever would like to answer this 
question. I think one of the things we have not even 
mentioned--well, I think Sergeant Marino talked about a gun 
that was recovered that they thought they were going to connect 
to something else. But clearly, one of the reasons why these 
gangs are so violent is because they have access to weapons. 
What initiatives on the local level, partnering with the 
Federal/State authorities, what are you doing to address the 
clear ease with which these gang members are able to get guns? 
Where are they coming from? How are they buying them?
    Mr. Sini. I'll speak for Suffolk County. We have strong 
partnerships with the New York State Attorney General, with 
ATF, FBI, all of our Federal partners. Obviously, guns are not 
manufactured in Suffolk County. I do not think there are many 
guns manufactured in New York State at all, and many of our 
guns come from the iron pipeline, from the south.
    There are some exceptions. We do have some hot spots in the 
Northeast, point of origin. But the key, of course, is tracking 
these weapons, making sure we are doing ATF traces on all our 
weapons, sharing that intelligence with law enforcement 
agencies in the region, investing in technology in our lab to 
make sure we are able to do ballistic analysis in a timely 
fashion so that if there is a match, we know about it in almost 
real time. We are making improvements on that front.
    So again, it is about intelligence, it is about making sure 
we are sharing that intelligence.
    In terms of removing weapons from our streets, we have had 
a particular focus on search warrants. Since my administration 
came in, we have increased our search warrants in 2016 compared 
to 2015 by 118 percent, and in 2016 that helped us recover more 
illegal firearms than ever before in Suffolk County, 507 
compared to 333 the year before. That corresponds to a decrease 
in violent crime. So it is not because there are more 
shootings. In fact, shootings dropped 4.4 percent. It is 
because we are doing more enforcement.
    Ms. Rice. Let me just say, I should not say that this kind 
of gun violence is specific to MS-13. We see it every day in 
the paper all across this country, and it is a much larger 
issue that we do not need to get into now. But just in terms of 
how you are dealing with MS-13, if anyone else has any thoughts 
about the issue of guns----
    Mr. Melendez. I would also like to underscore the fact that 
MS-13 members' weapons of choice are readily available at a 
sports store. So when we look at the level of violence that 
they carry out, they carry out with baseball bats or other 
instruments that are found in a hardware store, like a machete, 
that actually makes it more challenging to be able to address 
the level of violence.
    I agree with what Commissioner Sini indicated. However, it 
is important to underscore that when we are talking about 
specifically MS-13, the level of violence that they carry out, 
what is their trademark, is the utilization of instruments that 
are found readily available to any citizen at a hardware store 
or at a sporting goods store.
    Ms. Rice. So are you saying they do not use guns?
    Mr. Melendez. No, they do utilize guns, ma'am.
    Ms. Rice. Right, so there is very little you can do to 
prevent someone from going into a Dick's Sporting Goods and 
buying a baseball bat.
    Mr. Melendez. That is correct. But what I wanted to 
underscore is the fact that when you look at the level of 
violence that they carry out, their seal is the utilization of 
machetes, the utilization of baseball bats. They do--yes, 
ma'am--utilize firearms. However, it is important to underscore 
that because one of the things in my experience dealing with 
gang operations in other jurisdictions, not necessarily with 
MS-13, is the fact that gang members carry firearms or they 
have firearms readily available. Dealing with the MS-13 
phenomenon is something that we could encounter, but not 
necessarily it is always the fact.
    So it makes it more challenging to be able to bring--if you 
find an illegal alien with a firearm, that is a Federal charge 
that you can charge them with. The fact of the matter that you 
find them with a bat, then, of course, it makes it more 
challenging for us, and it is very particular to the MS-13. I 
just wanted to underscore that.
    Ms. Rice. No, I appreciate that.
    Can I just go to Mr. Sweeney? Commissioner Sini pointed out 
that one of the things that might help this situation is hiring 
more AUSAs. Having been a former one, like the Commissioner, I 
wholeheartedly agree that you can always use more. Prosecutors 
tend to be very overworked, not just at the Federal level but 
at the local level as well. What are your thoughts about that?
    Mr. Sweeney. I would let this district speak for itself. I 
know more is always good. More is more. More gets more cases, 
more prosecutions, so I think I agree with the sentiment, 
although I will not be the one to argue that directly. But I 
think anybody in this building that works upstairs would agree.
    Ms. Rice. What about agents?
    Mr. Sweeney. More is more. We are a big office. The New 
York office is the largest, as you know. We have the ability to 
surge resources when we need to, but more is more. The more we 
hire, the more cases we work, the more we get done.
    Ms. Rice. I could not agree more.
    Sergeant Marino, just in terms of the gun issue, are they 
still doing gun buy-backs in Nassau County?
    Mr. Marino. I will let the Commissioner answer.
    Mr. Krumpter. Yes, we are still doing gun buy-backs with 
the Nassau County District Attorney program that was started a 
number of years ago.
    Ms. Rice. By the way, I do not say that just because I 
started them in Nassau County. I say that because you have to 
use every tool in your toolbox to try to get guns off the 
street, and we had enormous success with that program, and they 
were not all just old, inoperable weapons.
    Mr. Krumpter. No. As Congressman King and Congressman Rice 
are aware, they are real guns that are taken off the street 
that could be diverted--even if they are legally possessed, 
they could be diverted into the hands of criminals.
    The one thing I will also add on is with MS-13, MS-13 is 
unique. We have had great success in Nassau County reducing the 
number of shots fired, especially in that corridor--Roosevelt, 
Uniondale, Hempstead. But with MS-13, the weapon of choice, as 
was pointed out in Nassau County, is machetes and other knives, 
chains, bats. After discussions with Sergeant Marino, in last 
place with MS-13 are those firearms.
    When it comes to other gangs, we know that they have a 
propensity for gun violence. Because of the programs we have 
implemented, we have seen a reduction of those types of 
shootings in Nassau County. In Roosevelt/Uniondale in 
particular, from a peak in 2007 of 350 or so shootings, we have 
now somewhere in the neighborhood of about 40 that we have been 
able to stay for an 85 percent reduction in shots being fired 
in those two communities.
    Ms. Rice. Commissioner Sini, what is the status of the 
fusion centers that you mentioned before?
    Mr. Sini. I will let FBI speak regarding--I will let the 
two Federal agencies speak as to their fusion centers. We have 
one in Suffolk County that is not MS-13-specific. It is an 
intel center that is obviously very focused on gangs. The one 
that is abroad, a trip is being scheduled currently for the 
month of August. There will be several local law enforcement 
officials, as well as Federal officials, invited to attend to 
engage in roundtable discussions regarding what that fusion 
center should look like so that it can be most effective.
    Mr. Sweeney. For the FBI, the fusion center or the fusion 
cell that I mentioned earlier is a group of analysts that sit 
inside our Long Island Gang Task Force. So those analysts are 
from almost all the agencies, as we continue to build it, that 
are already represented by operators on our task force. Those 
analysts are solely grabbing the intel that moves from those 
departments and sharing that amongst themselves.
    The other network that we have that we are working to 
exploit even further is the domestic National intelligence 
framework. So there are 12 DNI reps around the country. In this 
region, we have tried to take some of our officers in the 
Northeast to focus not just on the National intelligence 
priorities--counterterrorism, counterintelligence--but what are 
we seeing in criminal areas that actually, in my opinion, 
affect some of our National security concerns.
    So as an example, last week we had all the officers on the 
East Coast, in my region at least, from Philly through Albany, 
discuss MS-13 so we could try to bring some of the State and 
local partners in from those local jurisdictions so they can 
see what we have, we can see what they have, and then partner 
them up. I think Tim was down recently in PG County as Mike 
McGarity, who is my SAC for criminal, tried to work that 
network.
    So it is a network, and each one of those field offices has 
analysts, has an intel branch or a field intelligence group 
that can then leverage that network up and down, all around the 
region.
    Mr. Melendez. For Homeland Security, specifically for HSI, 
here in Long Island, actually in this building, we have a 
command center in support of Operation Matador where we house 
all elements from the Department of Homeland Security--Customs 
and Border Protection, the U.S. CIS as well, the Fraud and 
Detection National Security officers are assigned, as well as 
HSI and ICE intelligence agents.
    One of the other things that we utilize and that is 
specifically for Long Island operations is in our headquarters 
we have a database that we actually bounce financial 
information off of. So any type of financial information, we 
have a repository of information that allows us to create these 
linked charts and structures of the MS-13.
    The other thing is at the National level, of course, we 
utilize the Special Operations Division system that is actually 
directed from the Drug Enforcement Administration. So any gang-
related information regarding telephone numbers or targets, we 
are able to place it in that repository so it is accessible to 
all partner agencies as well.
    Ms. Rice. Great. Thank you all very much.
    Mr. King. Commissioner Sini, in the last several months we 
have had the administration in Washington, we have had Governor 
Cuomo in Albany, we have had yourself, obviously the FBI and 
Homeland Security, in effect declaring war on MS-13. There have 
been a number of high-profile arrests, large numbers of arrests 
surging.
    Have you found an increase in cooperation from the 
community? What impact has that had? Are they coming forward 
with more intelligence? I remember being with you a few months 
ago in Central Islip, I guess it was. Have you, in effect, 
challenged them to come forward, asked them to come forward? 
Have you seen any increase in people volunteering information?
    Mr. Sini. Yes. The community has been tremendous. I know 
oftentimes the media wants to portray this picture of a 
community that is not willing to come forward, but it simply 
does not jibe with reality. I understand that people are 
fearful. They are fearful of the gang, and those who are 
undocumented are also fearful of immigration consequences. But 
I think because of the brutal nature of MS-13, the support that 
the Suffolk County Police Department has provided to 
individuals and the work that many of the advocacy groups and 
community-based organizations have done in the community, we 
have received significant assistance from the community.
    That is not to say we could not benefit from more. It is 
hard to know what we do not know in that sense. But we have a 
lot of different options for people to come forward. They can 
come forward through third-party advocates, and some of those 
individuals, hard-working individuals, are in this room behind 
me. They can call our anonymous tip line, 1-800-220-TIPS, and 
that accommodates over 200 foreign languages. They can 
essentially reach out to any asset that we have in the police 
department.
    We believe that the community, as the police department, 
feels that it is important to stand strong, and we have been 
very pleased with the support that we have received from the 
community. Part of that, too, is the victims' families. I 
cannot say enough how tremendously supportive the victims' 
families have been, and think about the trauma and tragedy that 
they have recently experienced. Oftentimes people may react 
with anger and look to blame, and the family members have been 
tremendously supportive, even becoming activists in their own 
communities to empower the residents to fight against this 
gang. I cannot say enough about that. It is remarkable.
    Mr. King. Congresswoman Rice was asking Sergeant Marino 
about the number of schools that participate. I would also like 
to ask that about Suffolk County. This does not involve co-pay, 
but I know that some of the victims' families have said in 
other school districts that when they went to the school 
district and told of threats, told of actual threats made 
against their children, that the school district did not follow 
through in informing the police.
    How does that work as far as when they should come to you, 
when they should not? How does privacy work? I know that some 
of these victims' families are very upset by that. How accurate 
it is, I am not vouching for it other than they seemed very 
believable to me when they told me.
    Mr. Sini. Without commenting on any specific instance, I 
will say very clearly that whenever there is an allegation, 
even if it is not corroborated or confirmed, but whenever there 
is an allegation of some sort of threat that is associated with 
a gang, that information should be immediately shared with the 
Suffolk County Police Department. It is that simple.
    Mr. King. On the question of the unaccompanied minors, I 
have spoken with Secretary Price's office, because HHS, 
basically, Health and Human Services, has the final word on 
that. Has there been any improvement in the relationship 
dealing with HSI on that?
    Mr. Melendez. As a matter of fact, yes, there are. So we 
are basically--when I talk about the 5,000 unaccompanied alien 
children that were resettled here in Long Island, it is based 
on the information that HHS has readily provided to us. So 
their willingness to cooperate with law enforcement and work 
with us, we have seen a dramatic change, and they are 
cooperating and providing information.
    Mr. King. Mr. Sini and Mr. Krumpter, have you seen any of 
that, more cooperation from HHS?
    Mr. Sini. I think it is important that we have ready access 
to information that is in the possession of the Department of 
Homeland Security and the Office of Refugee Resettlement 
regarding immigration status and other facts that may help us 
use certain tools. The Department of Homeland Security, under 
the special-agent-in-charge's leadership, has recently provided 
a mechanism by which the police department can request 
information and receive it within a short period of time, 
certainly within 24 hours, and that, I think, is going to do a 
lot of good for information sharing and for the overall 
mission.
    In terms of determining the UAC status of certain 
individuals, I still think there is room for improvement. I 
still have holes in my data, and I am in a very data-rich 
institution. Nassau County PD and Suffolk County PD have 
intelligence policing models. We are collecting data on a daily 
basis. We have a tremendous amount of intelligence. Yet I have 
holes in that data, and that needs to be addressed, in 
particular regarding the status of certain individuals as it 
relates to the UAC program.
    Mr. King. Mr. Krumpter and Sergeant Marino?
    Mr. Krumpter. What we have seen is a significant 
improvement in communication with Homeland Security, who for us 
is acting as the gate with Health and Human Services. But as 
far as direct contact with Health and Human Services, we have 
not seen any improvements in that area. As you are aware, 
Congressman King, our entire organization is driven by the 
intelligence-led policing model. The intel center is very 
robust. But we do know that there are holes, as Commissioner 
Sini pointed out, when it comes to the unaccompanied minors, 
and I do not know that it is so important for us to be getting 
the information on the unaccompanied minors. I think it is more 
important that Social Services in Nassau County is getting that 
information so they can get them into the necessary programs. 
It is all about intervention, and it is all about prevention. 
So if they start committing crimes, we are going to arrest 
them. But it is getting them the resources on the front end 
that is the most important part of this.
    Mr. DeMarco. By the time I get them, they are usually in 
custody in the facility, and we have a very close relationship 
with the Department of Homeland Security. There are three 
agents stationed at the facility. They work very closely with 
our gang intelligence unit doing interviews and determining 
status and whether or not they are removable.
    Mr. King. When Attorney General Sessions was here, we did 
raise up the issue of the Assistant U.S. Attorneys. Has anybody 
heard anything on that?
    Mr. Sini. In terms of----
    Mr. King. More U.S. Attorneys?
    Mr. Sini. No, I have not. I am quite sure there has been no 
increase. Just to sort of piggyback on the Assistant Director's 
comments, I consulted with the U.S. Attorney's Office a couple 
of weeks ago regarding their staffing levels. If you look at 
their staffing levels as it correlates with the population in 
Suffolk and Nassau County, they have less staffing than other 
offices with more population. So I think there is a real 
argument to be made using data, using staffing levels, 
population, index crimes, that additional AUSAs are warranted.
    Ms. Rice. Mr. Chairman, if I may just ask a question?
    Mr. King. Sure.
    Ms. Rice. Does the hiring freeze apply to DOJ?
    Mr. King. I do not believe so, no. I know the Attorney 
General did say he was going to look into it. He seemed 
receptive. I am just wondering if anything has come through the 
pipeline, any word on that. OK, we can check on that with the 
U.S. Attorney.
    Mr. Sini. So just to throw out some stats----
    Mr. King. Compared to Nebraska?
    Mr. Sini. Kansas--same thing.
    Mr. King. You can say that. I do that and I get 
[inaudible].
    Mr. Sini. Nassau and Suffolk combined has a population of 
about 2.85 million, with 14 AUSAs, three of whom I believe are 
supervisors. By comparison, Kansas has a population of 2.9 
million and 24 criminal AUSAs, plus six special assistants.
    The Eastern District of Tennessee has a population of 2.6 
million and over 30 AUSAs, and I believe there are other 
examples that can be provided.
    Mr. King. Mr. Sweeney, it seems like you wanted to say 
something here.
    Mr. Sweeney. No. I am good, sir.
    Mr. King. I know you prosecutors always stick together. But 
I actually fully endorse that.
    Mr. Krumpter. I think it is actually quite clear: More 
agents, more prosecutors, more cases. It is more focus on the 
gangs, it is more focus on the heroin epidemic that is ravaging 
Long Island. You are looking at literally close to one person a 
day dying as a result of a heroin overdose on Long Island, and 
every single police officer on Long Island is trained on 
Narcan. So there are literally hundreds more, two or three a 
day, that would have overdosed if not for the intervention of 
the police.
    Mr. King. Ms. Rice, do you have anything?
    Ms. Rice. No, thank you.
    Mr. King. I want to thank all of you. Thank you all for 
your testimony. Really, more important than that, thank you for 
the job you are doing day in and day out. I want to really 
commend you for it.
    This is a war. We are going to win it. It is going to be 
because of people like you. So, thank you very much; and to all 
the men and women who work for you, thank you.
    [Recess.]
    Mr. King. The Committee will come to order.
    Again, I want to thank our witnesses from the first panel. 
I think it was very, very informative.
    Our second panel today consists of Mrs. Evelyn Rodriguez 
and Mr. Robert Mickens, who are the mother and father of 
victims Kayla Cuevas and Nisa Mickens. Also, we have Dr. Howard 
Koenig, who is the superintendent of the Central Islip School 
District, and Mr. Patrick Young. He and I have had engagements 
over the years, all professional. I recognized him both from 
meetings we have had and from protests against me. But in any 
event, it is great to have you here today.
    Let me start on a very serious note, Mrs. Evelyn Rodriguez 
and Mr. Robert Mickens. Mrs. Rodriguez is the mother of Kayla 
Cuevas. Mr. Mickens is the father of Nisa Mickens. Their 
daughters were killed on September 13, 2016 by MS-13 gang 
members. In the face of unspeakable tragedy, they have both 
been advocates for justice for their daughters, improved 
security in schools and public safety. As Mr. Sini said, I 
think they have formed a viable work by coming forward the way 
they have, by really giving a public face to private anguish. 
Also I would say I have had several meetings with them. I know 
they met with Attorney General Sessions. They meet with Mr. 
Sini on a regular basis and with the FBI, HSI, everyone 
involved.
    So I want to thank them for all they have done up until now 
in the face of unspeakable horror, and I want to thank them for 
agreeing to testify here today.
    I now recognize Mrs. Rodriguez and Mr. Mickens. Take 
whatever time you want. You can speak in the order in which you 
wish. Thank you.

      STATEMENT OF ROBERT MICKENS, SUFFOLK COUNTY RESIDENT

    Mr. Mickens. Ever since September 13, 2016, the loss of 
Nisa and Kayla has shocked us not only as a family, shocked our 
community and shocked the world. You know, two young ladies' 
lives have been cut short over something that could have been 
settled differently, could have been handled differently. It 
could have been acted upon in a different way.
    We sit here and think about it every day, about what would 
have happened if these girls did not leave the house. Would it 
have made a difference? Yes, and possibly no, because the way 
these criminals think, we are all really not too sure how they 
actually think. They could have mental problems, or they could 
just be very ignorant about how they go about handling things 
in life.
    But it is very difficult, but we have a lot of support from 
our community. We support each other, and we also just take the 
time every day to give our praises and say thank you for 
allowing us to have the strength to carry on to make sure this 
does not happen to another student or somebody else's child, or 
their father or brother or sister, aunt or uncle in our 
community.
    We would like to say thank you to the Suffolk County 
Police, Homeland Security, the FBI, because they are providing 
security for our community and, of course, the rest of Long 
Island and the United States, and it shows the community that 
security is there, they are trying to make it better. It is 
actually working.
    Now, us becoming advocates and activists in our community, 
we have to show that, yes, you have to work with your local 
police in order to get results done. It is very important for 
us community leaders, people who are just average citizens in 
the community, to step forward to say something. It is not 
about the whole term ``snitching.'' You have to say something, 
and by us sitting here today, hopefully it will help bring more 
of a change to our community and to the rest of the United 
States.
    [The prepared statement of Mr. Mickens follows:]
                  Prepared Statement of Robert Mickens
                             June 20, 2017
    My broad experience with MS-13 before Nisa's murder was like most 
people. I know we heard about them seldomly only in passing a little 
article from time to time or someone talking about them here and there. 
The old adage you never really know about anything until it affects you 
personally is very true. Unfortunately, it became all too real on 
September 13, 2016. MS-13's grip on the community has not been felt 
until it hit our family and made the news. Their shockingly cruel crime 
has brought forward a knowledge no community should deal with. Begs to 
ask, why didn't we know about them until now? Many MS-13 members come 
here as youngsters those who are initiate into the gang are a mix 
between citizens and unaccompanied minors who are then recruited or 
forced into MS-13. In turn we have these young kids committing crimes 
backed by fear promoted and abused by the gang.
    The community has not only dealt with death but others acts of 
violence destruction of properties and it seeps into the school system 
nourished cultivated and brought forth. There's no one solution this 
process takes time and takes a community effort something easily said 
than done it also takes people working with law enforcement again 
something a lot find hard. We also have to change the mentality of the 
community CHANGE is the magic word it starts from the home and it ends 
in the streets schools need to be a safe haven for our children. The 
Federal Government, NYS, Suffolk County must update their laws to catch 
up to these individuals of MS-13. With the same energy they put forth 
to commit crimes we need to be equally if not more aggressive to 
eradicate them from our society.

    Mr. King. Mrs. Rodriguez.

     STATEMENT OF EVELYN RODRIGUEZ, SUFFOLK COUNTY RESIDENT

    Mrs. Rodriguez. Thank you, Congressman King and 
Congresswoman Rice, for having me here today to testify on 
behalf of this critical mission to eradicate MS-13.
    My daughter, Kayla, was bullied, targeted for 2 years in 
school from the MS-13. She was murdered September 13, found 
September 14. Twenty-four hours later, they found her.
    These individuals have changed my life, my family's life 
dramatically. We were a family that used to go out on the 
weekends, take the kids to the park, go to church, be with 
other family, with friends, with their kids. You do not see 
that anymore. You see people staying home now, holding their 
kids tight.
    Kids are going to school afraid because they are being 
targeted and bullied, as my daughter was. Parents are scared to 
send their kids back to school. The majority of the kids are 
being home-schooled because they are either being targeted or 
bullied, or the parents are just scared to send them to school.
    We need to have more stronger policies, laws in place for 
these individuals that do this heinous crime to these other 
kids. They are kids killing kids. That needs to be stopped.
    We cannot let our kids be afraid to go to school, because 
in the beginning this is where it all originates, in school. 
They get them in school. They target them. They bully them. 
They have other people to look out to get them.
    My daughter, for 2 years, her life was miserable in school. 
She had to wear a tougher skin every day to go to school. You 
could see the difference in her personality. The minute she 
walked on that school ground, her personality changed. She had 
to be a tough girl in order to survive that whole day in 
school.
    When Mr. King was saying about law enforcement being 
contacted, some of these schools do not contact law enforcement 
when a child is being threatened, and I can testify to that 100 
percent fact, that that does not happen. They like to keep it 
under cover. They like to keep it among themselves, and they 
want to say they are taking care of it, but they cannot.
    This situation is growing every day. Every year the numbers 
increase in school with this gang violence, and it needs to be 
stopped.
    I want to say thank you to everyone that has been 
affiliated, involved in trying to get these individuals, 
Commissioner Sini, law enforcement, the 3d Precinct, the FBI, 
the Gang Task Force, everybody that is involved. I want to say 
thank you for your hard work and your dedication, and please 
continue to be dedicated to ensure that these individuals are 
caught and justice will be done for them, they will be judged.
    I am sorry.
    We also need programs, interventions in schools. Funding 
needs to be supplied for the schools. Every time the funding 
gets cut, our kids are more in danger. Our kids are at risk to 
things to be happening in the district.
    Our State officials, Federal officials, law enforcement 
have to come together and find a solution, something that can 
work out throughout our community to come together to make 
things right, a little better. I do see a difference in our 
community, in people coming together, coming a little bit more 
out, giving more information, but a lot of them are scared due 
to their status, as Commissioner Sini said. That has nothing to 
do with if they have information. Please provide it, because 
your status here, that is not in question.
    I believe the American Dream for everybody. Everybody here 
works hard to have that dream. I just want these criminals that 
are coming into our country to be stopped, to be investigated 
further. They are coming in here, recruiting our kids, if not 
at the high rate of the risk of these unaccompanied kids coming 
into our country. It needs to be further investigated. It needs 
to be more policies in place in order to make our kids safe, 
our families safer, our communities safer.
    I think that is it.
    [The prepared statement of Mrs. Rodriguez follows:]
                 Prepared Statement of Evelyn Rodriguez
                             June 20, 2017
    Any parent's nightmare is calling your child for hours and hours, 
and they do not answer their phone, then you realize that something is 
wrong. Your heart races and you think the unimaginable, then the 
reality hits when you are told that your child's body was found.
    My world collapsed to know that my Kayla was brutally murdered by 
the same group of kids involved in the MS-13 gang that have been 
bullying her in school for the last 2 years. I was left emotionally 
helpless because I couldn't protect her from these savages that are 
cold killers. Kayla's death opened the doors to find the bodies of 4 
more kids that were missing students from Brentwood High School. Now 
the MS-13 left their mark in communities to be known as the most 
vicious and brutal gang in history in and outside our schools.
    Parents and community residents now live in fear and are afraid to 
let their kids play outside. The MS-13 gang is so unpredictable, you 
just don't know who is who with them. MS-13 is a new breed of murders, 
they are children, kids killing kids, and as they continue to grow so 
does their techniques of recruiting helpless kids into their wicked 
actions. We must change our laws to protect our children and community 
from these criminals. Bring long-term resources and strategic Federal 
pilot programs that will bring solution to this gang epidemic, however 
this can't just be done by the law enforcement, local Government, we 
need the community to come together and be part of this process and 
take our streets back. We need to eradicate MS-13 for good.

    Mr. King. Thank you very much for your testimony.
    Dr. Koenig, Dr. Howard Koenig, is the superintendent of 
schools for the Central Islip School District. He has had a 
long career in the education field. I have had the privilege of 
visiting his school district a number of times, and I have to 
say it was actually in his school district--this is going back 
2 years now--that I began to learn the full extent of MS-13 
penetration into the schools and the program that they have 
adopted to try to combat that. So I want to thank you for 
agreeing to be here today. I know you had to cancel some other 
meetings to be here, so I thank you, Dr. Koenig, for again 
being so attentive to this issue and for your dedication.
    You are recognized.

    STATEMENT OF HOWARD M. KOENIG, PH.D., SUPERINTENDENT OF 
       SCHOOLS, CENTRAL ISLIP UNION FREE SCHOOL DISTRICT

    Dr. Koenig. Thank you. Chairman King, Congresswoman Rice, I 
want to thank you for your invitation to appear and testify at 
this hearing. I am proud to serve as the superintendent of 
schools for the Central Islip Union Free School District, the 
school district we are all located in at this very minute.
    The very violent activities of MS-13 have had a great and 
terrible impact on our schools, on our community and, most 
importantly, on our students. The ability of criminal members 
of this gang to gain entry to the United States is something 
that goes far beyond what any school district or local 
community can resolve.
    However, since the gang's success is measured in its 
recruiting new and younger members from our schools, this is 
something that I believe we can have a positive impact on 
reducing and, God willing, preventing. It is that that I would 
like to speak to you about today.
    The young school-aged candidates for gang recruitment are 
isolated, frightened, and feel very vulnerable. Their new 
country, their new community, their new schools can feel very, 
very unwelcoming. They have come, in so many cases, as you have 
heard this morning already, they have come in so many cases 
from places of extreme violence and death. They have spent very 
little time, if any, in organized schooling. They do not speak 
the language of their new home. They are not familiar with the 
local customs or societal norms. They are missing and need so 
very much structure and support in their lives. They seek a 
feeling of belonging to their communities.
    It is our job in the schools to provide for the education 
of all of our resident students. We want to do that in a safe 
and secure environment. Our newly-arrived students very often 
come with significant needs, and we provide services to those 
children based on those needs. We partner with local community 
agencies to help these students, agencies here in Islip such as 
Youth Enrichment Services, who we work very closely with in 
providing programs for these students.
    With the help of programs from New York State and the U.S. 
Department of Education, we had been able to provide help to 
our newly-arrived students not only during the school day but 
in after-school programs and other things to help those 
students transition into their new communities. The President's 
executive budget proposal would reduce funding by approximately 
$9.2 billion for the Education Department. The programs that we 
would lose and the help that we would not be able to provide to 
these students because of these cuts include--and this is not 
an inclusive list, but it includes after-school programming, 
extended-day academic support, special education help, teacher 
development help. The domino effect that the Federal cuts to 
the New York State budget would impact our ability to provide 
other programs that we were able previously to offer.
    This is the second-largest requested decrease in education 
aid since, I believe, 1983. That request in 1983 was met with a 
Congressional increase in assistance to the Education 
Department and our schools, and I am confident that you guys 
will do that job again. I hope I am confident.
    Now, why do I list these? It is because the loss of these 
programs will hamper our ability to bring newly-arrived 
students into the mainstream of school life and to provide to 
them a sense of belonging. It is the absence of this connection 
between these students and the mainstream of school life that 
makes them easy prey for gang recruitment. It can be 
postulated, I think, that the reductions in the assistance that 
we receive that enables us to work with these students becomes 
a tool. These reductions would become a tool which enhances 
successful gang recruitment activities.
    I thank you for the opportunity to speak to you this 
morning, and thank you for the chance to be here.
    [The prepared statement of Dr. Koenig follows:]
                 Prepared Statement of Howard M. Koenig
                             June 20, 2017
    Mr. Chairman and Members of the Counterterrorism and Intelligence 
Subcommittee, I wish to thank you for your invitation to appear and to 
testify at this hearing. My name is Dr. Howard M. Koenig and I am proud 
to serve as the superintendent of schools for the Central Islip Union 
Free School District.
    The very violent activities of MS-13 have had a great and terrible 
impact on our schools and our community and most importantly on our 
students. The ability of criminal members of this gang to gain entry 
into the United States is something that goes far beyond any solution 
that the school districts and our local communities can resolve. 
However, since the gang's success is measured in its recruiting new and 
younger members from our schools this is something, I believe, we can 
have a positive impact on reducing and preventing. It is that I would 
like to speak to you about today.
    The prime young school-aged candidates for gang recruitment are 
isolated, frightened, and feel very vulnerable. Their new country, new 
community, and new schools can feel very unwelcoming. They have come, 
in so many cases, from places of extreme violence and death. Many have 
spent very little time, if any, in organized schooling. They do not 
speak the language of their new home. They are not familiar with the 
local customs or societal norms. They are missing and need structure 
and support in their lives. They seek a feeling of belonging.
    It is our job in our schools to provide for the education of all of 
our resident students. We want to do that in a safe and secure 
environment. Our newly-arrived students, very often, come with 
significant needs. We provide services based upon those needs. We 
partner with local community agencies to help these students. Agencies 
such as the Youth Enrichment Services program in the Town of Islip. 
With the help of programs from New York State and the U.S. Department 
of Education we had been able to provide help to our newly-arrived 
students, not only during the school day but in after-school programs 
to help the students transition into their new communities. The present 
executive budget proposal would reduce funding by approximately $9.2 
billion for Education Department spending. The programs that we would 
lose and the help we would not be able to provide to these students 
include after-school programing, extended-day academic support, special 
education help, and teacher development. The domino effect of the 
Federal cuts to the N.Y. State budget will impact our ability to 
provide programs that we were previously able to offer. Why do I list 
these? It is because the loss of these programs hamper our ability to 
bring the newly-arrived students into the mainstream of school life and 
provide to them a sense of belonging. It is the absence of this 
connection between the students and the mainstream of school life that 
makes them easy prey for the gang recruitment.
    It can be postulated that these reductions become a tool which 
enhances successful gang recruitment activities.

    Mr. King. Thank you, Dr. Koenig. Thank you very much for 
your testimony.
    Our final witness is Mr. Patrick Young. He is the program 
director at the Central American Refugee Center in Hempstead. 
He is an immigration attorney and immigration eights advocate. 
He is a special professor of immigration law at Hofstra 
University School of Law, and in 2012 he was named co-director 
of Hofstra's Immigration Law Clinic.
    As I said, Mr. Young and I have known each other over the 
years. I have great respect for him. We do not always agree, 
but it has always been on a professional basis. So I want to 
thank you for being here today, thank you for your efforts. I 
look forward to your testimony.
    You are recognized.

  STATEMENT OF PATRICK YOUNG, ESQ., PROGRAM DIRECTOR, CENTRAL 
                    AMERICAN REFUGEE CENTER

    Mr. Young. I thank you, Chairman King and Ranking Member 
Rice, for allowing me to testify in front of this committee. It 
is very moving to listen to Mr. Mickens and Mrs. Rodriguez' 
testimony because certainly the harm they have suffered has 
been suffered by them and by a dozen other families in the 
area, and the fear that they talked about in the community is a 
fear that many people in the community feel.
    Nassau and Suffolk Counties have 526,000 immigrants living 
in them out of a total of 2.8 million people. That means 1 in 6 
Long Islanders is an immigrant. So we sometimes talk about 
immigrant communities, but immigrants are spread throughout 
Long Island, although certainly certain communities are 
concentrated in certain villages here.
    We have the largest suburban immigrant population in the 
United States, and the population of immigrants here is roughly 
equivalent to that in San Francisco, Philadelphia, and Boston. 
So although immigration is often thought of as an urban or 
rural phenomenon, 50 percent of immigrants now move to suburban 
areas, and Long Island was one of the first suburbs to have a 
large number of immigrants.
    In the mid-1990's, when Mara Salvatrucha first came to my 
attention, CARECEN approached the Nassau County Police 
Department to partner with the police in reaching out to 
immigrant communities to oppose the growth of MS-13. We 
arranged for meetings in our office for the police to get 
together with ordinary Central American immigrants to build 
relationships, because policing has to be based on 
relationships. I would say that prior to that time, the police 
had not really been focused on the immigrant community.
    As the police began to devote more resources to countering 
Mara Salvatrucha, they adopted a strategy of working side-by-
side with the primary victims of these gangs, the young 
immigrants. CARECEN was invited to help train several classes 
of police cadets at the Academy and provide training to the 
detective and hostage negotiation units of the Department. We 
even had two police officers intern with us in order to learn 
how to talk with the community and work with the community 
better.
    Nassau police understood that many in the growing immigrant 
community came from countries where the motto of the police was 
not ``serve and protect'' but ``oppress and brutalize.'' The 
Nassau County----
    Mr. King. Now, what years are we talking about?
    Mr. Young. This would be between--well, we first were 
working with Herb Faust back around 1998.
    Mr. King. Sorry to interrupt you. I just wanted to get 
that.
    Mr. Young. Sure. Then a lot of our work expanded when 
Lawrence Mulvey became the police commissioner. So this is not 
a partisan thing. It was two Republican administrations and one 
Democratic administration.
    Nassau police listened to immigrant concerns and made sure 
the Department was accountable to the people that they served 
irrespective of immigration status and long before it became a 
mantra among police. As Commissioner Sini said, the Nassau 
police early on adopted a creed that they would not ask your 
immigration status if you were a victim or a witness, or even 
simply trying to seek the help of the police.
    The Nassau County District Attorney's Office under both 
Kathleen Rice and Madeline Singas has worked hard to ensure 
that immigrants from countries without functioning judiciaries 
understand that Nassau was not like their homelands, that 
criminals could not act with impunity, and that if they were 
harmed by criminals they could obtain justice.
    In Suffolk, CARECEN also regularly hosts meetings between 
our clients and members of the Suffolk Police. The difference 
with the situation in Nassau, however, is that these extremely 
positive interactions are of very recent vintage.
    As the Southern Poverty Law Center documented in 2009, the 
Suffolk County Police Department did not include immigrant 
cooperation in their policing strategies. The report found that 
violence against Suffolk immigrants was being fueled by elected 
officials and some law enforcement officials. Latinos believed 
that their reports of crime to the police went uninvestigated 
and ignored. This failure to partner with immigrants resulted 
in many tragedies in Suffolk, one of which was the rise of MS-
13.
    The elevation of Tim Sini to police commissioner seems to 
have brought real change to the way the Department does 
business. Spanish-speaking officers have been hired in record 
numbers, and the police meet regularly with community leaders. 
Unfortunately, these new initiatives are only a little over a 
year old.
    Three years ago, a large number of unaccompanied children 
came to the United States, as was testified before, about 8,000 
live here now, and we are often asked why so many. Well, this 
is where their families live. They are not being released to 
people on the streets. They are not street children. These are 
children who are being released to their family members.
    Long Island has the fifth-largest Central American 
community in the United States, and in most years we have 
between the third- and fifth-largest of unaccompanied children 
coming here.
    CARECEN works with more than 200 of these children. Many 
left because they or a family member was threatened or harmed 
by gangs trying to force them to join. These are the kids who 
said no to the gangs. You know, we always tell our children say 
no to gangs. They said no, and then they often became targets 
of rape, kidnapping, or death threats. In doing so, in saying 
no, they were placed in mortal danger.
    When the children came to Long Island 4 years ago, they 
were met with hostility from some officials and the illegal 
exclusion from some schools. It took action by the State 
Attorney General to compel some districts to provide 
Constitutionally-mandated access to education. CARECEN, which 
worked closely with the Attorney General's Office, had dozens 
of children who were kept out of school September, October, 
November 2014. Few of the refugee children received special 
orientations or welcomes to the community in which they had 
arrived. Some told us that they were very aware that they were 
viewed as a problem rather than as children by local officials.
    Federal, State, and county governments failed to make 
provisions for the reception of children. I know we have 
advocates who are dressed in white behind me, and many of them 
met with county leaders, with State leaders, and with Federal 
leaders to ask that more resources be given to the districts so 
that they could work more closely with these students. I know 
that you and Congressman Israel also worked on that. But it is 
something that largely was not forthcoming, as you mentioned 
before.
    By contrast, almost as soon as a much smaller flow of 
children began in New York City, the city appropriated over a 
million dollars to assist in their resettlement here. Similar 
welcoming programs should be implemented on Long Island. The 
children need to learn that if they are being bullied by gang 
members or in their neighborhoods or schools, they can turn to 
school officials and the police for help.
    One of the things that I think Commissioner Sini mentioned 
that I think is very important is that while there may be a 
small number of unaccompanied children who are gang members 
prior to arriving here, in most of the situations where people 
have been tempted to join the gangs, it has been because they 
have been in schools and have been harassed either by Mara 
Salvatrucha or by rival gangs and either sought to end the 
harassment by joining the gang or have sought the protection of 
an alternative gang.
    The welcoming must also come from public officials. A small 
number of young immigrants do become involved in gangs, but 
stigmatizing all immigrant youth as potential gang members only 
convinces the young that they have no allies outside of their 
ethnic group.
    The violence of Mara Salvatrucha should be kept in 
perspective as well. Long Island still has one of the lowest 
homicide and violent crime rates among the country's 
metropolitan areas. As the immigrant portion of Long Island's 
population has grown over the last 40 years, the homicide rate 
has gone down, not up.
    To uncover the criminals behind the outrages committed by 
MS-13, we need the cooperation of the people they victimize, 
the immigrant community. Immigrants will not be the eyes and 
ears of the police if they see the police as auxiliaries of ICE 
and assistance in deportation of otherwise law-abiding 
immigrants.
    Thank you.
    [The prepared statement of Mr. Young follows:]
               Prepared Statement of Patrick Young, Esq.
                             June 20, 2017
    Thank you for inviting me to testify before this committee. My name 
is Patrick Young and I am the program director at the Central American 
Refugee Center (CARECEN) with offices in both Brentwood and Hempstead 
on Long Island. I am an attorney and I have worked at CARECEN in 
different capacities for over 33 years.
    Nassau and Suffolk, the two suburban counties of Long Island, have 
526,000 immigrants out of a total population of 2.8 million people. One 
in six Long Islanders was born outside of the United States. We have 
the largest suburban immigrant population in the country and the 
immigrant community here is similar in size to those in Boston, 
Philadelphia, and San Francisco. The immigrant population on Long 
Island is extremely diverse, with four different continents having 
countries ranking in the Top 10 countries of birth for immigrant Long 
Islanders. The country of birth of the largest number of immigrants 
here is El Salvador.
    In the mid-1990's Mara Salvatrucha first came to my attention. At 
CARECEN we assisted several members of the Salvadoran community whose 
children were being intimidated by the gang. In 1999 we approached the 
Nassau County Police Department's (NCPD) detective chief Herb Faust to 
partner with the police in reaching out to immigrant communities 
through churches, community groups, and service organizations to oppose 
the growth of MS-13. We arranged for meetings at our office for Herb 
Faust and members of the NCPD's anti-gang unit to get together with 
ordinary Central American immigrants to build relationships. As the 
police began to devote more resources to countering Mara Salvatrucha 
they adopted a strategy of working side-by-side with the primary 
victims of Mara Salvatrucha, young immigrants. CARECEN was invited to 
help train several classes of police cadets at the academy, as well as 
provide training to the detective and hostage negotiation units of the 
department. We even had two officers intern with us.
    When Lawrence Mulvey became Nassau's Police Commissioner, outreach 
by the department expanded even further. Both Faust and Mulvey 
understood that good policing can only happen when the immigrant 
community partners with officers and detectives. They also knew that 
many in the growing immigrant community came from countries where the 
motto of the police was not to ``Serve and Protect'' but to ``Oppress 
and Brutalize.'' These police executives made the extra effort to meet 
repeatedly with immigrant leaders and ordinary immigrants to develop 
trust and understanding. They listened to immigrant concerns and made 
sure their department was accountable to the people that they served 
irrespective of immigration status.
    The Nassau County District Attorney's Office, under both Kathleen 
Rice and Madeline Singas, has worked hard to insure that immigrants 
from countries without functioning judiciaries understood that Nassau 
was not like their homelands, that criminals could not act with 
impunity, and that if they were harmed by criminals they could obtain 
justice.
    In Suffolk County CARECEN also regularly hosts meeting between our 
clients and members of the Suffolk County Police Department. We attend 
quarterly meetings with Police Commissioner Tim Sini and other 
department leaders. The difference with the situation in Nassau, 
though, is that these extremely positive interactions are of very 
recent vintage.
    As the Southern Poverty Law Center (SPLC) documented in the report 
``Climate of Fear: Latinos in Suffolk County,'' the Suffolk County 
Police Department (SCPD) did not include immigrant cooperation in their 
policing strategies for nearly a decade. In the 2009 study the SPLC 
found that violence and discrimination against Suffolk immigrants were 
being fueled by elected officials and some law enforcement officials. 
The study found that Latinos believed that their reports of crimes to 
the police went uninvestigated and ignored. According to the report, 
Latinos told the SPLC that ``they are regularly subjected to racial 
profiling while driving and often to illegal searches and seizures. 
They said there's little point in going to the police, who are often 
not interested in their plight and instead demand to know their 
immigration status.'' This failure to partner with immigrants resulted 
in many tragedies in Suffolk, one of which was the growth of MS-13.
    Five years ago we saw the police department take its first steps 
toward reform. Police/Community meetings became more regular and there 
were efforts at retraining officers. Unfortunately these efforts were 
undermined by notorious abuses. First, of course, was the arrest and 
conviction of Police Chief James Burke for beating a prisoner. The 
second was the arrest of Sgt. Scott Greene for his crimes against 
immigrants. Sgt. Greene had repeatedly targeted Latino drivers for 
traffic stops. During these stops he extorted money from his victims. 
Even though Latinos reported these crimes to the police they went 
uninvestigated for months. These and other incidents made it difficult 
for immigrants to take seriously the pledges of reform, however 
sincere, coming from the SCPD.
    The elevation of Tim Sini to Police Commissioner seems to have 
brought real change to the way the department does business. Spanish-
speaking officers have been hired in record numbers and officers who 
can't speak Spanish now have access to telephonic interpretation. The 
police meet regularly with community leaders and CARECEN never has a 
problem getting an officer to meet with our students and clients. 
Unfortunately, these new initiatives are only a little over a year old 
and they come as MS-13 violence has become more deadly.
    CARECEN welcomes the new spirit of cooperation and we hope that it 
continues. Immigration continues to our region and policing needs to 
reflect that reality.
    Three years ago, a large number of so-called Unaccompanied Minors 
began arriving on Long Island. More than 8,000 live here now. More have 
settled on Long Island than in the entire rest of the State combined. I 
am often asked why they are here. There are two parts to my answer. The 
first is that they are here because they have been forced out of the 
places where they live by gang violence. The second is that they come 
specifically to Long Island because this is where their families live. 
Contrary to the notion promoted in the media that they are children 
dumped on Long Island communities by the Federal Government, in fact 
they are typically only allowed to come to Long Island by the 
Department of Homeland Security and the Office of Refugee Resettlement 
if they have guardians here in Nassau and Suffolk counties. Long Island 
has the fifth-largest Central American community population in the 
United States and we have received the fifth-largest number of these 
children.
    In the 3 years that I have worked with these child refugees I have 
heard their stories of escape from gangs in their homeland. Many left 
because they or a family members was threatened or harmed by gangs 
trying to compel them into membership. In other words, these are kids 
who said ``No'' to the gangs. In doing so they were placed in mortal 
danger.
    When the children came to Long Island, some of them were met with 
hostility by local officials and with illegal exclusion from school. It 
took an investigation by the State attorney general to compel some 
districts to provide Constitutionally-mandated access to education.
    Even in the best of circumstances, few of the children received any 
special orientation or welcome to the communities in which they had 
arrived. Some told us they were aware that they were viewed as an 
``issue'' rather than as children. Federal, State, and county 
government failed to make the provisions for the reception of the 
children, ignoring recommendations to do so by CARECEN, Catholic 
Charities, and other groups working with them.
    By contrast, almost as soon as the much smaller flow of children 
began in New York City the government there appropriated over a million 
dollars for their integration. The city even became a regular presence 
in immigration court helping the children and their guardians 
understand the resources and services available to help them through 
their difficult first year in the United States.
    Similar welcoming programs should be implemented in Nassau and 
Suffolk counties. New arrivals need to learn that if they are being 
bullied by gang members at school or in their neighborhood, they can 
turn to school officials and the police for help. They don't arrive in 
the United States knowing that.
    And the welcoming must also come from public officials. A small 
number of young immigrants do become involved in gangs, but 
stigmatizing all immigrant youth as potential gang members only 
convinces the young that they have no allies among the non-Latino 
officials they sometimes feel are arrayed against them.
    The violence of Mara Salvatrucha is a serious problem for Long 
Island but it should be kept in perspective. Long Island still has one 
of the lowest homicide and violent crime rates among the country's 
metropolitan areas. As the immigrant portion of Long Island's 
population has grown over the last forty years, the homicide rate has 
gone down, not up.
    To uncover the criminals behind the outrages committed by MS-13 we 
need the cooperation of the community that they most victimize, the 
immigrant community. To halt the growth of the gang we must gain the 
trust of those they try to intimidate into joining. If a young 
Salvadorans is the target of violence by the Bloods, we need him to go 
to the police, not MS-13, for protection. Immigrant youth will not be 
the eyes and ears of the police if they see the police as the auxiliary 
of ICE.
    Since the Central Islip killings we have seen an increase in 
resources for gang prevention. This is welcome, even though it is 
coming late in the game. Hopefully further resources will be available 
to these communities, including those near here that Representatives 
Rice and King represent.
    Archbishop Oscar Romero, the martyr of El Salvador, once said that 
progress can only be made when we realize that ``we can all do 
something.'' To counter MS-13 we need to foster the power of immigrant 
youth and parents to ``do something'' to end the violence.

    Mr. King. Thank you, Mr. Young.
    Commissioner Sini has left, but in my conversations with 
him and in public statements he has made, he does not think 
that it is just by coincidence that some of these children have 
ended up with certain families. But he has said he thinks that 
MS-13 in Central America is coordinating some of these kids.
    Now, let's stipulate right at the start, the overall 
majority of these kids are honest, law-abiding, not going to 
get into trouble. But the other part of it is that the majority 
in some cases, and at least 30 percent in others, of those 
charged with serious crimes are unaccompanied minors.
    It is felt that MS-13 in El Salvador actually knows which 
families some of these kids are going to be going to. They are 
told what to do when they cross the border, and then you find 
that they have either been threatened by MS-13 or have been 
paid by MS-13 or are actually supporters of MS-13. So even if 
that is a small number of the overall number, what can be done 
to have better screening so that sponsors who are affiliated 
with MS-13 do not have these kids placed with them? Can more be 
done to scrutinize--I know they are young kids, but the records 
of these kids coming in? Are they coming from MS-13 families in 
El Salvador?
    Again, I am stipulating up front that the great majority of 
them are innocent kids and we are a welcoming country. So I am 
not trying to stop the program, but what can we do to make the 
program more effective and more safe? Because even though we 
say that Suffolk County and Nassau County have low crime rates, 
if you are living in Central Islip or Brentwood, you have one 
of the highest murder rates in the world, probably, right now, 
or if not the world, in the country. I mean, you are talking 
about 17 murders in basically two communities over the last 
year. The community is not that large; it is a large number.
    So, my community has no murders. But if I was living 20 
minutes away, I would be living in a high-crime area, certainly 
for the last several years.
    So what can we do to protect the innocent immigrants, 
documented or undocumented, from the MS-13 scourge coming in 
through the unaccompanied minors?
    Mr. Young. Sure, I appreciate the question. I think that 
there are really two parts to the answer. I think that the 
first part is, as you rightly point out, even if we assume that 
all of the unaccompanied children who have been charged with 
crimes associated with MS, that that still is 1 percent of all 
the children, so it is a very small number, and I believe 
Commissioner Sini also said that most of the MS folks that they 
have arrested appear to have joined MS after they came to the 
United States.
    So I think in addressing that, I think we are looking, as 
both police commissioners and the head of the gang unit in 
Nassau County pointed out, I think you are looking at creative 
and aggressive anti-gang work in the schools and also in the 
communities, because the schools are an important place. But 
many of the kids, as has been pointed out, when they first 
arrived in the United States, which is when they are, frankly, 
the most vulnerable to recruitment, many of the children do not 
necessarily see the school as a place where they find refuge 
and safety.
    So these programs should also be extended into churches. As 
you know, when you visited the community, many of the folks 
meet every week, essentially. The community comes together 
every week in church----
    Mr. King. Not to interrupt you, but I do know from talking 
to Commissioner Sini that there are a number of kids who are--
--
    Mr. Young. I was going to address that.
    Mr. King [continuing]. Placed by MS-13 operating out of El 
Salvador.
    Mr. Young. I think that is important to address, as well. 
My understanding is it is a very small portion of the children. 
It is a very small subset of the total.
    I think that one of the things that the Federal Government 
should be doing is to have greater engagement by ORR, which is 
the Office of Refugee Resettlement. ORR typically spends only a 
month working on each particular case.
    Mr. King. I think in the last several months they are 
changing that.
    Mr. Young. They are changing it, and there are cases in 
which they maintain contact for more than 6 months. But I think 
that a more general involvement would not only identify those 
who might actually be affiliated with MS but would also serve a 
useful purpose for other new arrivals who could be helped to 
integrate into their communities, because I think as they 
integrate into their community, as they have a feeling of 
affiliation, for instance, with Central Islip schools, they are 
not going to be drawn into MS. It is the child who is alienated 
who is most likely to be drawn into it.
    Mr. King. Can I ask Mrs. Rodriguez, Mr. Mickens, if they 
would like to comment on this, whether or not you believe there 
are families who are supportive of MS who are sponsors for the 
children?
    Mr. Mickens. Yes. Actually, we believe that, because they 
come up here to work, to find a better way of life; how much of 
that money is being sent back to their country to bring them 
back up here? So I truly do believe, yes, there is some type of 
recruitment going on where they may send a child from El 
Salvador to Texas to be with this specific family for X amount 
of time, then you can also ship them to New York to be with 
another family that is already established within the 
organization. That is something that is very true. A lot of 
kids are also being led into it because as a young child--13, 
14, maybe even 10 years old--who is new to America and new to 
our customs, for them it is, like I said, those starting a new 
job where, when we first start the job, we are not familiar 
with the policies and the procedures, we do not know this 
person, we do not know that person, until there is one 
particular person who comes up to you and starts showing you, 
oh, this is how you do this, this is how you do that, and the 
next thing you know they are being lured and manipulated into 
joining this organization.
    So I truly do believe it is from both sides. Yes, they are 
being automatically, as I was saying, drafted into it, and they 
are also being lured into it.
    Mr. King. Mrs. Rodriguez.
    Mrs. Rodriguez. I feel the same, too. When these kids are 
coming into the United States, like I said, it has to be really 
thought out. I think there is a lot of glitches in the system 
that needs to be fixed, that needs to be looked at again, maybe 
structured a little bit better. Some of them are affiliated, 
and some of them are not. Some of them, they are leaving their 
country due to the circumstances there. They want to have a 
better life, which is understandable.
    But like I said, my focus is trying to make these kids 
safer, policies stricter, laws changed, more harsh.
    Mr. King. Dr. Koenig, if you want to comment on that, then 
I will ask one question before I yield to Ms. Rice. Again, if 
you want to comment on that, and also in view of what Mrs. 
Rodriguez said before, when I am entering other school 
districts, if a parent came to you and said they felt that 
their son or daughter was being threatened, what action would 
you take? Would you contact the police?
    Dr. Koenig. We would first investigate what the parent 
said, and it has happened, obviously. If we felt that it was 
something that we could not handle in terms of mitigating the 
contact between these students, if it was rising above that, we 
most certainly would involve the police.
    We have a very, very strong relationship with the Third 
Precinct. Our school resource officer--and I said to the 
Commissioner I think she may walk on water--Officer Tracy 
Mathis, is very much in contact with our students, with our 
staff. The students in the schools know her and trust her. If 
they feel something is going on, they will talk to her.
    In addition, it is so important to know that it is the 
isolated child who is so subject to this recruitment. So we try 
to make sure that not even only new arrivals but any child in 
the school who is isolated out of the mainstream, that we reach 
out, staff and other students who are in various clubs, reach 
out to these students, let them know that they are not alone.
    Our social workers, our teachers that work in the high 
school with these students, have a very good relationship not 
only with the students but with the ability of that student to 
come, close the door, and talk about things that are going on. 
So we try to be proactive immediately when we hear this stuff, 
and we will certainly never, ever try to sweep it under the rug 
because we do not want it to look bad. What looks bad is if you 
do not take care of the child that is in trouble.
    Mr. King. Ms. Rice.
    Ms. Rice. Thank you, Mr. Chairman.
    First I want to extend my condolences to both you, Mr. 
Mickens, and you, Mrs. Rodriguez. I cannot even imagine the 
pain that you and your family have gone through. It must be 
intolerable.
    But my question to you, Mrs. Rodriguez, is since your 
Kayla's experience at school in terms of being bullied, I got 
the sense that you felt the school was not being responsive to 
the situation that was occurring with Kayla. If you could just 
talk a little bit about your interactions with the school since 
Kayla was murdered, and do you think that the school has 
learned anything as a result of your activism in this space 
from what happened to your daughter?
    Mrs. Rodriguez. Kayla was a beautiful girl, into sports 
heavily, loved basketball. She used to tell me, mom, if I did 
not make it in playing ball, I wanted to be in law enforcement. 
Law enforcement was hers since she was very young. I could be 
at a red light, a police officer could be pulling up at a red 
light, and she would immediately pull down her window and start 
asking questions at 7-11. That is how much she was so 
interested.
    Kayla was bullied for 2 years. I fought with the school for 
2 years going back and forth. She is being targeted, names, 
they threatened her. I assumed as a concerned parent I could 
pick up the phone and call. They said we will take care of it, 
Mrs. Rodriguez, do not worry, we will have this under control.
    For 2 years I was listening to the same story, we have it 
under control. My daughter was threatened on school grounds 
with a knife. She immediately came home and told me. I 
immediately called the school. They said the individual is no 
longer in the school. Coming that September, that individual 
was back in school. I go up there, have my meeting. They used 
to tell me the individual is not there anymore. Meanwhile, the 
individual was in another school district getting home tutored 
in school with three school security guards. My daughter will 
text me, ma, the person is back in school again.
    So how many times as a parent, as a concerned parent, 
active parent in school, have to go through this with one big 
meeting asking for the superintendent to attend these meetings? 
Their response was he is unable to attend the meeting, not 
getting the root of the problem, not being there to listen to 
the child, not just to label them right away saying this is a 
kid with a behavioral issue.
    If you see a kid being good in school, sports, all of a 
sudden you start seeing some type of behavioral changes, 
parents go up, meet with the student with the teachers to see 
what the problem is, my daughter is telling me a lot of things, 
I am expressing my concerns to the school, and they did 
nothing, and they continued to do nothing for these other kids.
    If a kid is coming up to a principal, to a dean, to an 
assistant principal and telling them I was threatened, why do 
you not take that serious? Why are you not listening to these 
kids when they are coming up to you? Because the end result, 
when the kids get tired of coming up with the same, coming up 
to say that I was being bullied and they see that there is no 
action being taken, what are they going to do? They are going 
to stop reporting it. They are probably going to have a tougher 
skin, always trying to look side-to-side to see who is looking 
at them or who is targeting them, or may not even show up for 
school. They will cut out for that day.
    There is a lot of things going on in the school district 
that they are not acknowledging it. They want to take care of 
it themselves, and it is a bigger issue. For my daughter, it 
was a big issue. The school did nothing for my daughter, 
absolutely nothing. My daughter went to school the first day of 
school, got suspended because she was being bullied, and my 
daughter was being told that she could not defend herself. That 
is wrong, totally wrong, unacceptable.
    If a child comes up to you with a concern, a complaint, 
take it serious. Do not put it to the side. Do not say we are 
going to take care of it, and especially when you have it on 
video that your child is being threatened. There is no time to 
do no investigation. That is for that phone call to be made to 
the law enforcement, and let them handle it, because if a kid 
comes up to me and says my life is being threatened, I am going 
to take that child to the precinct and report it immediately. 
Let them do the investigation. Whatever findings come out of 
that, well, at least I can say, you know what? I did my job. I 
went to the precinct, I made the report.
    When my daughter was being threatened in the very 
beginning, before the changeover with the law enforcement, new 
people coming into the new chair, they did not take my report 
as a parent. They looked at me like, OK, just tell your 
daughter do not go there. That was their response.
    Now, I am bringing my daughter to a precinct to let them 
show this is the way you do things, and for an officer to come 
out and tell me that very sarcastically like if I was a piece 
of garbage, I felt very offended. My daughter is, like, you 
see, ma? This is why we do not come up to them, because if they 
treat you like that, just imagine to us, and you are an adult.
    That is not right. We are trying to teach our kids to do 
the right thing, to report things when they see things 
happening. But if we are being knocked out at the beginning, 
how are our kids supposed to know what to do?
    Now, things have been changing, absolutely. Law enforcement 
has been more supportive to the community. They have been more 
out there trying to get the community, just to get to know the 
people in the community. When I first moved out here to 
Brentwood, the police officers had their zones. They knew 
families by their first names. They used to come out of the 
car, have a cup of coffee. I know that for sure because my 
mother used to make the Spanish coffee for them, and that is 
how the community should be, connected, united as one.
    When this situation was happening in the early 2000's until 
just recently, the community was a mess. I am sorry to say that 
because I have been here in Brentwood since 1978, and for me 
growing up here, graduating, and now having my kids and 
graduating, two different worlds, two different worlds.
    I know it is a whole new generation, I know that. But the 
consistency and the relationship should always be there. I see 
a big difference, a big difference with the law enforcement and 
coming out, like I said before, with the community and getting 
things open. When you are going up to the precinct, there is no 
more of that sarcasm or that attitude feeling. You are coming 
up there, you are being greeted: ``Yes, how can I help you?'' 
Not just sitting behind and saying, ``Yes?'' Or, ``I am sorry, 
your daughter should not be playing around in that area.''
    This is the response before when people used to make 
reports was happening. Now you see the difference that I see, 
going to meetings, talking to the community, talking to 
families. They actually see the difference when they are going 
up to the precinct and making a report, or just asking for 
information because, like I said, there are a lot of families 
that are scared to come forward with information, or just to 
give information because of their status.
    Me talking to them, I reassure them that that is not the 
case. If you have any type of information, there is a hot tip 
line you can call. You do not have to give your information, 
just give the information that they needed.
    There is so much. There is so much that needs to be done, 
so much programs that needs to be placed in schools. We just 
really need to, like I said, come and sit down and really open 
the doors for these kids to have more of the programs, after-
school programs, so we can keep them safe, not have these kids 
have in the high-risk category that they might be lured into 
these gangs. We just need more support, more funding for our 
kids, to make sure that they have places to go after school 
instead of being lured someplace else.
    Thank you.
    Ms. Rice. Thank you.
    Mr. Young, taking off on what Mrs. Rodriguez said about 
how, as a 40-year, almost 40-year resident of Brentwood, how 
different it was when she was growing up to now when she is 
raising her children, and you specifically talked about how you 
felt that there was a better relationship with law enforcement 
back then when you were growing up, what advice would you give 
law enforcement about how they can make it better and get back 
to a time like Mrs. Rodriguez talked about when she was growing 
up?
    Mr. Young. I think we have to remember that there was an 
active attempt to divide the community from the police in 
Brentwood, Central Islip, and elsewhere in Suffolk County when 
County Executive Levy discussed deputizing the police as 
immigration agents.
    Ms. Rice. Yes.
    Mr. Young. Also, honestly, what she said does not strike me 
as something that I have not heard before, where people from 
these communities have reported crimes and been told that the 
crime was not even going to be reported as a police report.
    You know, it is just as important--I live in Westbury. My 
aunt lived in Central Islip. I have to say, when I began 
looking at the Suffolk County Police Department 15 years ago, I 
was very surprised by how different it functioned in 
communities of color from the Nassau Police Department, that 
accurate recordkeeping did not seem to be an important goal.
    I think some of the things that need to be done are being 
done. Right now, 1 in 5 new officers has to speak Spanish, and 
I think that is important, because prior to 4 years ago, the 
Department, when they would be investigating a crime, if 
somebody was an immigrant, would ask the immigrant to have 
their child translate for them, and this may be a situation in 
which a person was a victim of domestic violence or in which a 
person was a victim of rape.
    The police department now uses both telephonic translation 
and keeps statistics on it, because we were finding that when 
they first started using telephonic translation, it was only 
being used a few times a day and they were encountering a few 
Spanish speakers per day. But now they are using telephonic 
translation, they are doing regular outreach to the community. 
We have had the police by three times, I think, in the last 
month-and-a-half at our organization just to get to know the 
community, which is exactly what Mrs. Rodriguez was saying is 
so important in her youth.
    It is important that people get to know the police not 
simply when they are being arrested or not simply when they see 
somebody being arrested, but that they get to know the police 
on a regular basis, and also that the police get to know them. 
You know, many times the police in places like Brentwood and 
Central Islip come from other parts of Suffolk County and 
really have no familiarity with these communities outside of 
the situations in which the law has been broken.
    The police have to be pillars of the community, but that 
means they also have to be part of that community. They can 
only be that if they can communicate with people there. If 
people feel comfortable, as Mrs. Rodriguez has been assuring 
them, that their immigration status is not going to be 
questioned when they report crimes.
    In 2008, when Marcel Luzauro was murdered in Suffolk 
County, we found that the Suffolk Police did ask victims of 
crimes what countries they were from. That is the sort of thing 
that alienated these communities, and it is something that we 
hope does not recur. We know that since there has been an 
upswing in the number of ICE raids carried out Nation-wide, 
that there is increased fear in immigrant communities. I think 
it has been a mark of Commissioner Sini's good grace that he 
has been able to get the cooperation of the community because 
the chief of police in Houston last month said that reports of 
rape from his city were down 40 percent over the last 4 months, 
and it was not because 40 percent fewer Latinas were being 
raped, it was because people were much more frightened now to 
work with the police.
    As I said, we have more than half-a-million immigrants on 
Long Island, so that is more than the total population of 
native-born and immigrants in Buffalo, Syracuse, and Rochester 
combined. We cannot make inroads against Mara Salvatrucha if we 
do not work directly with the immigrant community.
    Ms. Rice. What is your opinion on the placement program for 
UACs and how it could be better?
    Mr. Young. You know, I think there are checks in place at 
the border. People can be excluded from the United States if 
they pose a danger to the United States. We do know they are 
examined for gang markings, et cetera.
    I think that the best thing that can be done, though, when 
somebody is released onto Long Island, is for increased 
engagement by ORR. I think that the office needs to, as several 
of the police officials said, needs to stay in touch with the 
children.
    I know there has been discussion about revealing the names 
and locations of the children. ORR has been a little bit 
nervous about suggestions along those lines because they are 
afraid the children will be targeted. Not all people within law 
enforcement maybe are as professional as some of the folks we 
had here today.
    I think it is important that ORR does work with local 
community service agencies, with school districts, et cetera, 
to set up programs for the children. New York City does not get 
the names of the children, and yet they have very good outreach 
to the kids because they actually have a person stationed in 
immigration court who can meet with the children and, if the 
child wants, take down their information and work with the 
child in integrating into the community.
    But I think that should not fall only on local communities. 
I think the Federal Government, through the Office of Refugee 
Resettlement, should have case workers working with each of the 
children, and at least work with them for the first year that 
they are here in the United States. That will also give them a 
good chance to determine if the family is, in fact, the family 
that it was presented as.
    Ms. Rice. Thank you.
    Mr. King. I thank all the witnesses for their testimony, 
and also I will just add something on. I should have said this 
during the first panel. I know Mr. Sweeney and HSI is still 
here, Mr. Melendez is still here. I want to just submit a 
question in writing as to the rationale and the working 
together of having two task forces. If you could just answer 
that for me in writing, why there are two task forces, how they 
work together, and what the rationale for that is.
    I want to thank all of you, especially Mrs. Rodriguez and 
Mr. Mickens, for being here today. It has been invaluable to 
us, and I hope it provides some measure of relief to you to 
know that there is focus on this.
    Mr. Koenig, I want to thank you for your efforts over the 
years.
    Mr. Young, I am sure we will be seeing each other in the 
future. Again, I want to thank you for your dedication.
    Mr. Young. Either inside or outside your office.
    Mr. King. Either way. We can wave to each other.
    But seriously, I want to thank you especially and all the 
family members who have done so much to really bring this to 
the public eye, and hopefully it is not going to happen to 
other kids what happened to yours.
    But, thank you all.
    I have to say this officially. Pursuant to Committee Rule 
VII(D), the hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Chairman Peter T. King for William Sweeney, Jr.
    Question 1a. As you know, both the FBI and HSI have task force 
operations on Long Island focused on combatting transnational criminal 
organizations.
    What is the rationale for having two separate task forces?
    Question 1b. How do these two task forces work together?
    Question 1c. Do you have any agents assigned to the HSI's Operation 
Community Shield or Operation Matador?
    Question 1d. If not, has your agency ever been offered a spot on 
these task forces?
    Answer. Response was not received at the time of publication.
    Question 2. In testimony before the Senate Judiciary Committee on 
June 21, 2017, Mr. Scott Lloyd, Director of the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human Services, 
testified that ORR ``field specialists'' are now attending local MS-13 
task force meetings to strengthen the agency's partnerships with law 
enforcement. Has your agency had any interaction with ORR field 
specialists?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Peter T. King for Angel M. Melendez
    Question 1a. As you know, both the FBI and HSI have task force 
operations on Long Island focused on combatting transnational criminal 
organizations.
    What is the rationale for having two separate task forces?
    Answer. Both U.S. Immigration and Customs Enforcement (ICE) 
Homeland Security Investigations (HSI) and the Federal Bureau of 
Investigation (FBI) task forces are long-standing initiatives, pursuant 
to each agency's authorities, mission focus, global reach, and 
successes. ICE HSI initiated Operation Community Shield (OCS) in 2005, 
to respond to the growing threat of transnational criminal ``street'' 
gangs. Through its OCS domestic and international task forces, ICE HSI 
leverages its world-wide presence and expansive statutory and civil 
enforcement authorities to mitigate the threats posed by these global 
networks, often through the criminal or civil arrest of gang members 
and the tracing and seizing of cash, weapons, and other illicit 
proceeds.
    It is not uncommon for multiple task forces or initiatives led by 
separate Federal, State, or local law enforcement agencies to co-exist 
in a mission space and specific area. For example, HSI's Border 
Enforcement Task Force (BEST) and Department of Justice's (DOJ) 
Organized Crime and Drug Enforcement Task Forces (OCDETF) Program 
address narcotics violations but approach the threat from two different 
viewpoints. BEST's primary mission is to combat existing and emerging 
Transnational Criminal Organizations (TCOs) by employing the full range 
of Federal, State, local, Tribal, and international law enforcement 
resources in the fight to identify, investigate, disrupt, and dismantle 
these criminal organizations posing significant threats to border 
security.
    BEST is a comprehensive response to the constant threat to border 
security, public safety, and National security from TCOs seeking to 
exploit the United States' international borders. The Department of 
Homeland Security (DHS) seeks to create task forces free of the 
challenges often associated with multi-agency efforts by empowering 
partners to work in a true joint environment without the restrictions 
and challenges normally encountered in a single agency endeavor. BEST 
eliminates the lines between Federal, State, local, and Tribal 
investigations, and facilitate international cooperation in diminishing 
vulnerabilities exploited by TCOs. The OCDETF Program's mission is to 
reduce the supply of illegal drugs in the United States and diminish 
the violence and other criminal activity associated with the drug 
trade, through intelligence-driven investigations and prosecutions that 
capitalize on the combined resources and expertise of its 7-member 
Federal investigative agencies, in cooperation with each other, with 
OCDETF's cadre of experienced Federal prosecutors, and with State and 
local law enforcement agencies across the country. ICE HSI is an active 
OCDETF participant and frequently serves as the sponsoring/lead agency 
on OCDETF investigations in partnership with other Federal, State, and 
local law enforcement agencies, to include the Drug Enforcement 
Administration (DEA), FBI, and others.
    In February 2017, President Trump signed Executive Order (EO) 13773 
aimed at targeting transnational criminal organizations such as drug 
cartels and gangs. It orders Federal law enforcement agencies to focus 
enforcement on these groups and increase intelligence sharing and 
cooperation. Some of the specific portions of the order target 
international criminal gangs like MS-13. The Eexecutive Order directs 
Federal law enforcement agencies to devote sufficient resources to 
execute the swift removal of foreign nationals in transnational 
criminal organizations, where appropriate and to the extent permitted 
by law; increase prosecutions of immigration and visa fraud; and review 
whether current immigration laws should be amended to further prevent 
foreign members of these organizations from entering the United States.
    Paralleling the National perspective put forth by E.O. 13773, ICE 
HSI New York established Operation Matador to take a proactive approach 
utilizing all of its authorities, both criminal and civil, to remove 
known MS-13 members from our communities and to conduct long-term 
investigations of the gang and its leadership. ICE HSI New York has 
partnered with other DHS components including ICE Enforcement and 
Removal Operations, ICE Office of the Principal Legal Advisor, U.S. 
Citizenship and Immigration Services, and U.S. Customs and Border 
Protection Office of Field Operations. ICE HSI New York has also 
partnered with Suffolk and Nassau County Police Departments and the FBI 
to combat MS-13 in the greater New York City area, specifically on Long 
Island.
    From May 9, 2017 to August 2, 2017, Operation Matador led to 114 
arrests of known gang members, 90 of whom belong to MS-13.
    Question 1b. How do these two task forces work together?
    Answer. Paramount for a holistic Government approach is the 
utilization of de-confliction mechanisms to ensure the safety of law 
enforcement personnel and to have a transparent model to determine the 
agencies investigating a target. By following de-confliction protocols, 
the task forces can identify opportunities for joint investigations, 
enhance communication and information sharing, and address mutual 
targets of interest and determine the best investigative course.
    An FBI analyst is embedded with ICE HSI's Operation Matador. The 
analyst is responsible for de-conflicting targets, conducting social 
media research on known gang members, and running known gang members 
through the FBI databases. All ICE HSI targets of investigations as 
well as gang members confirmed to be removable are placed in eJustice 
SafetyNet, a local de-confliction system, and entered into De-
Confliction and Information Coordination Endeavor, a national de-
confliction system managed by the DEA.
    Question 1c. Do you have any agents assigned to the FBI's Safe 
Street Task Force?
    Question 1d. If not, has your agency ever been offered a spot on 
this task force?
    Answer. In New York, ICE HSI currently has one agent assigned to 
the FBI Long Island Safe Streets Task Force. ICE HSI also has one agent 
assigned to the Hudson Valley Safe Streets Task Force.
    Question 2. In testimony before the Senate Judiciary Committee on 
June 21, 2017, Mr. Scott Lloyd, director of the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human Services, 
testified that ORR ``field specialists'' are now attending local MS-13 
task force meetings to strengthen the agency's partnerships with law 
enforcement. Has your agency had any interaction with ORR field 
specialists?
    Answer. The Health and Human Services (HHS) Office of Refugee 
Resettlement (ORR) field specialist covering the New York/New Jersey 
area of responsibility is participating virtually with Operation 
Matador (OPMAT). The assigned specialist has provided Request for 
Information responses in near real-time. HHS ORR personnel are also now 
in touch with the Northern Virginia Regional Gang Task Force. HHS ORR 
personnel are establishing or re-establishing connections with gang 
task forces in which DHS participates. HHS ORR has also coordinated 
space for ICE HSI training for HHS ORR related to gang awareness. This 
gang awareness training will serve to provide HHS ORR the necessary 
information to stay abreast of trends within the gang culture and to 
help them identify potential gang members and activities associated 
with transnational criminal organizations.
       Questions From Chairman Peter T. King for Timothy D. Sini
    Question 1a. In testimony before the Senate Judiciary Committee on 
June 21, 2017, Mr. Scott Lloyd, director of the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human Services, 
testified that ORR ``field specialists'' are now attending local MS-13 
task force meetings to strengthen the agency's partnerships with law 
enforcement.
    Are you aware of any ORR field specialists attending MS-13 task 
force meetings in your jurisdiction?
    Question 1b. Are you aware of any interaction between these field 
specialists and any representatives from your agency?
    Answer. Since the committee held its hearing, we have had several 
communications with ORR regarding the placement of Unaccompanied Alien 
Children (``UAC'') in Suffolk County, including ORR's agreement to 
notify local government of the placement of UACs in the county. In 
addition, it is my understanding that ORR is now regularly 
communicating with the Department of Homeland Security, Homeland 
Security Investigations, Long Island. The Suffolk County Police 
Department has detectives assigned to HSI task forces. I appreciate the 
committee's attention to this very important issue.
      Questions From Chairman Peter T. King for Vincent F. DeMarco
    Question 1. In regards to the detailed notes taken by your Gang 
Unit Investigators during their interviews with MS-13 gang members in 
custody at Suffolk County jail, is there a Federal database available 
to your department to share this type of intelligence with the broader 
Federal, State, and local law enforcement community?
    Answer. Response was not received at the time of publication.
    Question 2a. In testimony before the Senate Judiciary Committee on 
June 21, 2017, Mr. Scott Lloyd, director of the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human Services, 
testified that ORR ``field specialists'' are now attending local MS-13 
task force meetings to strengthen the agency's partnerships with law 
enforcement.
    Are you aware of any ORR field specialists attending MS-13 task 
force meetings in your jurisdiction?
    Question 2b. Are you aware of any interaction between these field 
specialists and any representatives from your agency?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Peter T. King for Thomas C. Krumpter
    Question 1a. In testimony before the Senate Judiciary Committee on 
June 21, 2017, Mr. Scott Lloyd, director of the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human Services, 
testified that ORR ``field specialists'' are now attending local MS-13 
task force meetings to strengthen the agency's partnerships with law 
enforcement.
    Question 1b. Are you aware of any ORR field specialists attending 
MS-13 task force meetings in your jurisdiction?
    Question 1c. Are you aware of any interaction between these field 
specialists and any representatives from your agency?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
